<html>
<title> - IRAN'S SUPPORT FOR TERRORISM IN THE MIDDLE EAST</title>
<body><pre>[Senate Hearing 112-606]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-606

                      IRAN'S SUPPORT FOR TERRORISM
                           IN THE MIDDLE EAST

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 25, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE

76-693 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

          ROBERT P. CASEY, Jr., Pennsylvania, Chairman        

BARBARA BOXER, California            JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         MIKE LEE, Utah
CHRISTOPHER A. COONS, Delaware       MARCO RUBIO, Florida
TOM UDALL, New Mexico                JOHNNY ISAKSON, Georgia

                              (ii)        















                            C O N T E N T S

                              ----------                              
                                                                   Page

Byman, Dr. Daniel, senior fellow and director of research, Saban 
  Center for Middle East Policy, Brookings Institution, and 
  professor in the School of Foreign Service at Georgetown 
  University, Washington, DC.....................................     8
    Prepared statement...........................................    10
Casey, Hon. Robert P., Jr., U.S. Senator from Pennsylvania, 
  opening statement..............................................     1
Jeffrey, James F., former U.S. Ambassador to Iraq, Alexandria, VA     5
    Prepared statement...........................................     6
Levitt, Dr. Matthew, senior fellow and director, Stein Program on 
  Counterterrorism and Intelligence, Washington Institute for 
  Near East Policy, Washington, DC...............................    22
    Prepared statement...........................................    23
Pletka, Danielle, vice president, Foreign and Defense Policy, 
  American Enterprise Institute, Washington, DC..................    16
    Prepared statement...........................................    19
Risch, Hon. James E., U.S. Senator from Idaho, opening statement.     4

              Additional Material Submitted for the Record

Kerry, Hon. John F., U.S. Senator from Massachusetts, prepared 
  statement......................................................     2

                                 (iii)

  

 
                      IRAN'S SUPPORT FOR TERRORISM
                           IN THE MIDDLE EAST

                              ----------                              


                        WEDNESDAY, JULY 25, 2012

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey, Jr. (chairman of the subcommittee) presiding.
    Present: Senators Casey, Menendez, Cardin, Udall, Risch, 
Corker, and Lee.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. The hearing will come to order.
    Thank you very much, everyone, for being here with us this 
morning. And I am sorry I am running a little bit late.
    Today the Senate Foreign Relations Committee and its 
Subcommittee on Near Eastern and South and Central Asian 
Affairs meets to examine the grave implications of Iran's 
support for terrorism and militant movements in the Middle 
East. Iran's support for terrorism is well known and documented 
and has become an established fact over all these years. Iran 
provides political and military support to militant movements 
like Hezbollah, Hamas, and Islamic Jihad, and directly conducts 
terrorist acts throughout the Middle East to advance its 
interests. Over the past year alone, there appears to have been 
a sharp spike in Iranian-sponsored terrorism around the world. 
The international community has been clear in its resolve 
against Iran acquiring a nuclear weapon. We must also, however, 
unite in opposition to Iranian use of terrorism, an effort that 
will require heightened intelligence cooperation with countries 
around the globe and enhanced efforts to discredit the Iranian 
Quds Force and its patrons.
    The committee today meets to examine at least three 
fundamental questions. How does Iran's use of terrorism 
directly impact the national security of the United States of 
America and our allies in the region, including the state of 
Israel? No. 2, what have the historic political changes in the 
region and ongoing violence in the Middle East meant for Iran's 
position in the region and its use of terrorism to project 
force? No. 3, if Iran were to develop a nuclear weapons 
capability, how would this impact its behavior and 
relationships with terrorist organizations?
    Since its founding in 1979, the Islamic Republic of Iran 
has sought to compensate for its conventional disadvantage by 
resorting to the use of terrorism and support for terrorist 
groups.
    There are three areas that I would like to highlight where 
the support has been most significant and done the most damage: 
the support that Iran has provided to Hezbollah, Iraqi Shiite 
militant groups, and the Assad regime in Syria.
    The primary beneficiary of Iran's support for terror has 
been Lebanese Hezbollah, and as a member of this committee, I 
have tried to bring sustained attention to this relationship 
and what it means for U.S. interests. In June 2010, I chaired a 
hearing in which former Assistant Secretary Jeff Feltman and 
Ambassador Daniel Benjamin noted in joint testimony that ``in 
2008 alone, Iran provided hundreds of millions of dollars to 
Hezbollah and trained thousands of its fighters at camps in 
Iran. Iran continues to assist Hezbollah in rearming and 
violating Security Council Resolution 1701. Iran has also been 
found to be in violation of U.N. Security Council Resolution 
1747 which prohibits it from exporting arms and related 
material. In 2009, U.N. member states reported to the U.N. Iran 
Sanctions Committee three instances in which Iran was found to 
be transferring arms and related material to Syria, a regional 
hub for Iranian support to terrorist groups such as 
Hezbollah.'' That is what the Ambassador and the Assistant 
Secretary said in 2010.
    This threat to Iran came into very sharp focus last week in 
Bulgaria where five Israeli terrorists and a Bulgarian bus 
driver were murdered in a vicious act of terrorism. I and other 
members of the committee, offer our condolences to the victims' 
families and also to the people of Israel as they mourn this 
loss. The United States will assist Bulgaria and Israel in any 
way we can to help bring those responsible to justice.
    Without objection, I would like to submit a statement for 
the record on behalf of Chairman John Kerry which expresses 
some of these same sentiments.
    [The prepared statement of Senator Kerry follows:]

               Prepared Statement of Hon. John F. Kerry, 
                    U.S. Senator From Massachusetts

    Every American heart feels for the families of those killed in last 
week's vicious and cowardly murder of five innocent Israelis and a 
local bus driver in Bulgaria. Our prayers and sympathy are with the 
people of Israel and Bulgaria in these days of immense grief.
    As the smoke clears, one thing is clear: This terrorist attack was 
an act of hate, and it should stiffen the spines of free people 
everywhere. History is full of painful reminders that acts of hatred, 
left unchallenged, can grow to envelop whole societies--exposing the 
ugliest side of humanity. We must stand strong against the cruel sting 
of bigotry, anywhere and everywhere it rears its head.
    Too many don't realize the global reality of anti-Semitism today. 
Too many don't realize that a witches' brew of old prejudices, new 
political grievances, and economic troubles not seen since the 1930s 
have created dangerous new openings for extremism.
    The United States is committed to the security of Israel and to 
that of our Bulgarian partners. In addition to words of condolence and 
condemnation, America should offer every assistance to Israel and 
Bulgaria in dealing with the aftermath of this tragedy. I expect we 
will see--and we must see--a thorough investigation and close 
cooperation among our three governments to learn more about this 
deplorable incident and to bring to justice anyone connected to this 
horrific act.
    The fragility of a just society imposes on all of us a moral 
obligation to be eternally watchful against the forces that could 
scratch away at it, or tear it down altogether. While these attacks 
remind us that the fight is far from over, they also strengthen our 
resolve to stand together for the right of free people everywhere to 
live their faith in a peaceful world. We cannot rest until the job is 
done.

    Senator Casey. The authorities we know are continuing the 
investigation, but Israeli officials have publicly accused 
Hezbollah of conducting the attack. This is the latest and most 
deadly of a string of attempted attacks allegedly perpetrated 
by Hezbollah and Iran. Although both have not been definitively 
linked to all of these attacks, many are pointing to the string 
of plots as an escalation of Iran's terrorist activities abroad 
and its growing antagonism to the state of Israel.
    The United States does not differentiate between 
Hezbollah's political and militant wings, nor should our 
allies. More countries should recognize Hezbollah for what it 
is, a terrorist organization, and stand with the United States 
against Hezbollah in all its forms.
    Over the past year, I and others have grown increasingly 
concerned about Hezbollah's increased level of terrorism 
activity abroad while it has consolidated its political 
position at home in Lebanon. I hope that more of our allies 
will recognize this reality and work to address this threat 
posed by Hezbollah.
    In Iraq, Iran has provided Iraqi Shiite militants and 
terrorists with funding, weapons training, and guidance in 
order to protect Iran's strategic interest and threaten the 
remaining United States presence in Iraq. We can never forget 
the scores of United States troops who died in Iraq because of 
Iranian-supported militant groups. The United States should 
continue to support the Iraqi Government as it resists undue 
influence from Iran and fights terrorism within its borders.
    Syria remains Iran's key ally in the region. Iran continues 
to support the Assad regime despite the terrible violence--the 
massacre of thousands--it is inflicting on the people of Syria. 
We know that Iran has sent weapons and equipment to bolster the 
regime. Several shipments were intercepted in 2011. The Quds 
Force is reportedly advising Syrian security forces on tactics 
to crush the unrest.
    In response, the Treasury Department has sanctioned the 
Quds Force for human rights abuses in Syria. Tehran, we know, 
has few friends around the world. I and others have called for 
Assad to step down as long ago as August 2011.
    For the sake of the Syrian people and Iran's position in 
the region, the international community should maintain 
pressure on the regime for political transition as soon as 
possible.
    Finally, this committee must examine the relevant influence 
of Iran amid the political changes that have swept the region 
since the beginning of 2011. Iran has clearly grown more 
aggressive as it lashes out against Israel and United States 
interests. But what is not clear is Iran's ability to influence 
countries in the region that have increasingly rejected Iran's 
form of authoritarian government and use of violence. I look 
forward to hearing from the witnesses about how Iran will seek 
to exert its influence in this increasingly uncertain regional 
environment.
    In closing, we are all very concerned about a nuclear Iran. 
If past behavior is any indication, a nuclear Iran would act 
more aggressively to exert its influence across the Middle 
East. Even if it did not ever use an atomic weapon, a nuclear 
Iran would feel empowered to conduct more terrorist attacks 
against United States and Israeli targets, provide more lethal 
assistance to Hezbollah and Palestinian militant groups, and 
give the Quds Force greater freedom to support terrorist groups 
across the Middle East.
    I look forward to hearing the views of our witnesses on 
these issues.
    We are, indeed, honored to be joined by four distinguished 
experts to help us assess these issues and evaluate policy 
options.
    First, we welcome Ambassador Jim Jeffrey who recently 
retired from the Department of State after a long career of 
public service. Thank you, sir, for being here. Ambassador 
Jeffrey served as U.S. Ambassador to Turkey and most recently 
as Ambassador to Iraq until June of this year.
    Second, Dr. Matthew Levitt is a senior fellow and director 
of the Program on Counterterrorism and Intelligence at the 
Washington Institute for Near East Policy, as well as a 
lecturer at Johns Hopkins University Nitze School of Advanced 
International Studies. From 2005 to early 2007, he served as 
Deputy Assistant Secretary for Intelligence and Analysis at the 
U.S. Department of Treasury. Dr. Levitt is the author of a 
forthcoming book, ``Hezbollah: The Global Footprint of 
Lebanon's Party of God.'' Thank you so much, Doctor.
    Third, we welcome Dr. Daniel Byman, senior fellow and 
director of research at the Saban Center for Middle East Policy 
at the Brookings Institution, as well as professor in the 
Security Studies Program at Walsh School of Foreign Service at 
Georgetown. Thank you very much.
    And finally, we welcome Ms. Danielle Pletka, vice president 
for Foreign and Defense Policy Studies at the American 
Enterprise Institute and expert on the region's complex 
politics. Ms. Pletka is a former staff member of the Foreign 
Relations Committee and testified at our 2010 hearing on 
Hezbollah. Welcome back to our committee.
    We thank our witnesses and look forward to their insights 
today on this very important topic.
    And I would like to turn now to our distinguished ranking 
member, Senator Risch, for his opening statement.

           OPENING STATEMENT OF HON. JAMES E. RISCH,
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Well, Mr. Chairman, thank you so much. This 
is an important hearing. I am happy to participate in this.
    What is happening today, I think, around the world--there 
is a tremendous amount of focus on Iran and its nuclear 
program, and that seems to be really dominating the 
conversation. Even before that happened, Iran has been a 
sponsor of terrorism. They continue to be so, and they are 
getting bolder at it from time to time. So it is important that 
we underscore this. It is important that we bring a focus on 
this.
    We have a distinguished panel. I am anxious to hear from 
them, and I am particularly interested in hearing their views 
about how the collapse of Syria, which I think everyone is in 
agreement will happen at some time in the hopefully not too 
distant future, will affect Iran's conduct of its support for 
terrorism.
    Thank you very much, Mr. Chairman.
    Senator Casey. Thank you, Senator Risch.
    We will now turn to opening statements from our witnesses. 
I would encourage all of our witnesses to keep their remarks 
brief and succinct. Your entire statement will be made part of 
the record, but if you could summarize, that would help us. We 
will try to keep it between 5 and 7 minutes. I have a gavel not 
a gong, but we will try to exercise restraint.
    I think we will start with Ambassador Jeffrey. Thank you 
for being here.

 STATEMENT OF HON. JAMES F. JEFFREY, FORMER U.S. AMBASSADOR TO 
                      IRAQ, ALEXANDRIA, VA

    Ambassador Jeffrey. Thank you very much, Mr. Chairman, 
Senator Risch, Senator Corker. It is a privilege to be back 
here.
    I agree with everything that you said already on Iran. What 
I would like to do is to focus for the moment on Iraq, both our 
experiences there and whether there are lessons that we can 
draw more generally.
    One of the major fields, as you indicated already, of 
troublesome Iranian activity within the larger context is its 
behavior in Iraq. Iran's interests in Iraq range from those 
with some rationale, avoiding a repeat of the devastating 1980 
Iraqi attack on Iran, to those which we must resolutely resist, 
using the whole gamut of Iran's capabilities for its strategic 
advantage, arming the Shia militias that are under its tutelage 
and using them for terrorist activities, putting the Iraqi 
Government under constant pressure, and looking at the Shia 
population of Iraq as not an independent element of a sovereign 
state, but rather as potential Iranian vassals.
    Thus, a major element of our policy toward Iraq and Iran 
should be, and has been, to counter this Iranian campaign, 
including but going beyond its use of terror.
    Here we can usually count on the Iraqi people and 
government as our allies. In various polls, we have seen that 
the Iraqi people reject close relations with Iran. They want to 
have a neighborly relationship, but Iran is very unpopular in 
all the polls we have seen. It has not been successful in 
penetrating the Shia religious center in Najaf, and its 
commercial and investment activities in Iraq, although 
significant, have not led to any dominance of the Iraqi 
economy.
    Meanwhile the Government of Iraq, despite Iranian pressure, 
has struck out at Iranian-backed militias repeatedly, increased 
crude oil exports significantly over the past 18 months, thus 
helping to balance the reduction of Iranian exports on world 
oil markets due to the sanctions. The government has cooperated 
with us in the past year on a solution to the Mujahideen-e-
Khalq, the MEK situation of Iranians that are located within 
Iraq. It has supported the Arab League position on Syria, and 
it has stopped likely arms flights from Iran to Syria.
    I would thus characterize Iran's current posture toward 
Iraq as one of an economy of force. Iran is comfortable with 
the overall political situation in Iraq. It has good relations 
with all the Shia and Kurdish parties. It does not see Iraq as 
threatening Iran at the moment. But in return, it has not 
sought seriously to challenge the various things that Iraq has 
done, which I just enumerated, nor the United States close 
relations, particularly military and FMS relations, with Iraq, 
including over $10 billion in FMS sales and eventually 36 F-16 
fighters.
    Furthermore, several times Iran has pulled back its support 
for terror and for these armed militias which it has set out to 
utilize when we and the Iraqi Government have resisted strongly 
through military, diplomatic, and other actions.
    I do not want to overstate the resistance of Iraq to 
Iranian influence. Many Iraqis have personal ties with Iranian 
leaders. There is the religious connection between Najaf and 
Qom within the larger context of Shia Islam. As then Senator 
Biden said in 2008, ``The idea that we can wipe out every 
vestige of Iran's influence in Iraq is a fantasy. Like it or 
not, Iran is a major regional power and it shares a long border 
and a long history with Iraq.''
    To sum up, first in Iraq, our overall strategy there, 
including stemming strategic Iranian dominance of the country, 
has been successful, despite the massive cut in resources, a 
cut that I supported, over the past 2 years, withdrawal of 
troops, drop in our assistance. This is a policy that we should 
continue bearing always in mind that this success is fragile 
and should not be placed at risk for wider policies. If Iranian 
pressure increases, we have tools to counter it, but absent 
such an increase, we have far more promising ways and places to 
challenge Iran strategically: Syria, as you indicated, the oil 
portfolio, and U.N. sanctions on the nuclear portfolio.
    More generally, the lessons you can draw from this, first 
of all, are that Iran sees terror not the way we see it, but 
simply as one of the many tools it uses in asymmetrical 
campaigns to achieve its own influences.
    Second, based upon my experiences in Iraq, when we push 
back hard, including hard militarily, Iran usually pulls in its 
claws and assumes a defensive posture, but that is usually when 
it is doing something of an adventuresome nature. Whether it 
would do the same when it sees its core interests challenged is 
another question.
    So I will stop there, Senator. Thank you very much.
    [The prepared statement of Ambassador Jeffrey follows:]

        Prepared Statement of Ambassador (Ret.) James F. Jeffrey

    Senator Casey, members of the subcommittee, it is an honor to 
appear before you, and to be back before the Senate, although this 
marks the first time I have been here as a private citizen.
    Iran is obviously a serious threat to security throughout the 
region. Its pursuit of nuclear weapons, support for terrorism, and 
hostility to Israel, make it rightly the single greatest cause of 
concern in the region at present.
    One field of worrisome Iranian activity in this larger context is 
Iraq. Iran's interests in Iraq range from those with some rationale--
ensuring no second devastating attack like that of 1980 ever is 
launched against Iran from Iraq, to those we must resolutely resist--
using the whole gamut of its capabilities for its own strategic 
advantage, from the arming of militias and encouraging their terrorist 
attacks, to pressuring the Iraqi Government politically, and refusing 
to accept the Iraqi Shia as truly one element of an independent state, 
but rather as potential Iranian vassals.
    Thus a major element of our policy toward Iraq should be, and has 
been, to counter this Iranian campaign, including but going beyond 
terror.
    Here we can count on the Iraqi people as our allies. To quote 
recent remarks by Vice President Biden's National Security Advisor, 
Tony Blinken: ``Baghdad repeatedly has acted contrary to Iran's 
interests, including with its support for the Arab League and U.N. 
General Assemby Resolution on Syria; its pressure on Iranian backed 
militias to dramatically reduce attacks; and the patience it has thus 
far shown, despite repeated urging from Teheran, during efforts to 
relocate the MEK residents of Camp Ashraf.'' The Government of Iraq has 
also increased markedly oil exports, and imposed Security Council 
strictures on Iranian overflights possibly carrying weapons, both of 
which run counter to Iranian interests. We thus should not consider 
Iran to be ``10 feet tall'' in Iraq. The popularity of Iran among the 
Iraqi people, including the Shia, has remained low. Iranian 
interference with the Najaf Shia Islamic center is deeply resented. 
Iranian commercial dominance of Iraq has not been successful. Even 
supposed allies of Iran, such as Muqtadah al-Sadr, have shown 
considerable willingness to take on Iran directly, as we have seen in 
the recent no confidence vote debate against PM Maliki.
    I would thus characterize Iran's current posture toward Iraq as one 
of an ``economy of force.'' Iran is comfortable with the current 
political order in Iraq dominated by Shia and Kurdish parties, with 
whose leaders Iran has had generally good relations for decades. It 
does not fear attack by Iraqis, and since the United States withdrew 
combat forces, it does not fear a U.S. attack out of Iraq. But in 
return it has not sought seriously to check the extraordinary U.S. 
military training and equipping effort in Iraq, including over $10 
billion in FMS programs and eventually 36 F-16 aircraft.
    Several times Iran has pulled back its support for terror and 
instability when faced with strong resistance by the United States, the 
Iraqi Government, or both.
    During the Najaf fighting in 2004, Iran withdrew its support from 
Muqtadah 
al-Sadr. Likewise, in 2008, when PM Maliki supported by the United 
States seriously challenged the Sadrists and other militias in Basrah, 
the Iranians backed down rather than upping the ante. In mid-2011, we 
faced increasingly lethal attacks against our forces in Iraq by 
Iranian-backed militias. The U.S. responded militarily, complemented by 
diplomatic and military action by PM Maliki, which eventually ended the 
attacks. Clearly, Iran received the message. Some argue that the Iraqi 
decision not to keep a small U.S. military presence in Iraq post-2011 
was due to Iranian pressure. The Iranians of course didn't want such a 
presence. But in October all the Iraqi parties but the Sadrists agreed 
formally on the need for one. What blocked it was their decision not to 
grant that presence legal immunities. However regrettable, the reasons 
for that decision go far beyond Iran.
    I do not want to overstate the resistance of Iraq to Iranian 
influence. Many Iraqis have personal ties with Iranian leaders, and 
despite friction, close religious ties exist between Iranian and Iraqi 
Shia. Iran also has considerable economic and investment presence. As 
then Senator Biden said in 2008: ``The idea that we can wipe out every 
vestige of Iran's influence in Iraq is a fantasy. Even with 160,000 
American troops in Iraq. Like it or not, Iran is a major regional power 
and it shares a long border--and a long history--with Iraq.''
    But the United States must remain on its guard, to ensure that Iran 
does not try to exploit its inevitable strengths in Iraq. Secretary 
Clinton in remarks on Meet the Press in October laid out the U.S. 
policy well: ``Iran's strongman should not miscalculate America's 
resolve to stoke democracy in Iraq even after our troops leave. We have 
paid too high a price to give the Iraqis this chance, and I hope that 
Iran and no one else miscalculates that.''
    That is the policy that we followed during my tenure in Iraq, and I 
believe it is a good one. Given Iran's considerable clout and 
proximity, we cannot eliminate Iran's influence on Iraq. The Iraqis 
will from time to time make common cause with Teheran, as we recently 
saw at the OPEC meeting. Within limits, that is inevitable, and we live 
with it. If we give the Iraqis a ``with us or against us'' choice, I 
can assure you that they will not move further toward us. Our quiet 
success in constraining various Iranian initiatives has been based on 
our flexibility. Where it's important, we cajole and act. Where it's 
not important, we watch closely.
    Most Iraqis understand this. Some, often seeking U.S. support in 
their domestic political battles, argue that the United States is too 
lenient regarding both the Iranians and those who on occasion work with 
them. I disagree. At present, our overall strategy in Iraq, including 
stemming strategic Iranian dominance of the country, has been 
successful, despite a massive cut in our resources committed. That is a 
policy we should continue, bearing always in mind that this success is 
fragile, and should not be placed at risk for wider policies. If 
Iranian pressure increases, we have tools to counter it. But absent 
such an increase, we have far more promising ways and places to 
challenge Iran strategically, from Syria to oil to U.N. sanctions.
    Thank you again, and I would be happy to answer any questions.

    Senator Casey. Mr. Ambassador, you are off to a really good 
start here. On time. We usually do not have people that keep 
time like that. That is great.
    Dr. Byman.

 STATEMENT OF DR. DANIEL BYMAN, SENIOR FELLOW AND DIRECTOR OF 
   RESEARCH, SABAN CENTER FOR MIDDLE EAST POLICY, BROOKINGS 
INSTITUTION, AND PROFESSOR IN THE SCHOOL OF FOREIGN SERVICE AT 
             GEORGETOWN UNIVERSITY, WASHINGTON, DC

    Dr. Byman. Thank you. I will try to follow the Ambassador's 
model.
    Senator Casey, members of this distinguished committee, 
thank you for the opportunity to be here to testify before you 
today.
    As you know, Iran has not only been a longstanding 
supporter of terrorism, but its activities seemed to have 
increased in the last year especially against Israel. Driving 
this, in part, has been the developments of the Arab Spring. 
The Arab Spring shook Iran, especially the events in Syria. 
Tehran has few allies really anywhere in the world, but Syria 
is one of these, and the loss of Syria would be a huge blow to 
Iran, reducing its ability to meddle in Lebanon and in the Arab 
Israeli arenas. From Iran's point of view, the campaign against 
Syria is also part of a broader campaign against Iran.
    Also negative from Iran's point of view has been a shift in 
Palestinian politics. Hamas has largely left Syria, going to 
Egypt and other countries, and some Hamas leaders have 
criticized the Assad regime's crackdown and, in so doing, 
implicitly criticized Iran's support for Damascus. So Iran has 
lost influence with its most important Palestinian partner and 
lost support among Palestinians in general.
    Tehran also sees Israel and the United States as on the 
offensive. The killing of Iranian nuclear scientists, 
explosions that destroyed Iranian missile facilities, a cyber 
attack that set back Iran's nuclear program, and other covert 
measures are considered part of a low-level, but nevertheless 
real war that the United States and Israel are engaged in. From 
Iran's point of view, its own violence is a response to this 
war that is already being waged against the clerical regime.
    Yet, even as Iran feels this pressure, it also believes it 
can fight back. Iranian officials see the United States as on 
its heels in many ways because of the United States withdrawal 
from Iraq and coming withdrawal from Afghanistan. In both these 
instances, the United States initially vowed to transform these 
countries and isolate pro-Iranian voices. In both cases, the 
United States is leaving without achieving these very broad 
goals, especially with regard to Iran, and from Iran's point of 
view, one of the lessons is simple which is if you keep the 
pressure on the United States, it will back down.
    Let me talk briefly about the nuclear program. From a 
counterterrorism point of view, the question of how to respond 
on the nuclear program is fraught with problems. The shadow war 
between Iran and Israel has created a retaliatory dynamic with 
Iran responding to what it feels is Israeli aggression, and as 
long as these low-level attacks continue, we can expect an 
Iranian terrorist response. If Israel and/or the United States 
did a direct military strike on Iran's suspected nuclear 
facilities, we should expect a considerable Iranian response 
through terrorism. This would be around the world with both 
Iranian assets directly and also Hezbollah, and Tehran would 
also try to call in other favors from groups like the 
Palestinian Islamic Jihad and also al-Qaeda with whom it 
maintains ties, though not exactly friendly relations. And we 
would also expect to see Iran step up support for anti-American 
forces in neighboring Afghanistan.
    But as you mentioned, Senator, in your opening remarks, 
should Iran acquire a nuclear weapon, the picture could get 
much worse. The nuclear weapon could provide Iran an umbrella 
giving it a sense of security from conventional attack that 
emboldens it to work even more with a range of substate groups 
and encourages them to be more aggressive.
    The silver lining, if we can call it that, is that under 
current circumstances, Iran would not be likely to pass a 
nuclear weapon to terrorist groups. Iran would not be likely to 
trust such a sensitive capability to a terrorist group, and 
even a very bold Iran would recognize that Israel and the 
United States would see this as a tremendous risk and danger 
and that many of the constraints that have so far characterized 
United States and Israeli behavior would go out the window 
should this happen. One indication of Iran's caution on this 
score is that it has not transferred much less lethal weapons 
such as chemical weapons, even though these have been in Iran's 
arsenal for over 25 years.
    In my written testimony, I have a number of policy 
recommendations. Let me just make a few points right here.
    One is that one of the challenges for the United States is 
that given the pressure on Iran's nuclear program, which to me 
should be the priority in the United States-Iran relationship, 
that this pressure makes it harder to do additional escalation 
specifically related to terrorism. There are efforts that can 
be done against particular entities and should be done, but 
that said, there is already tremendous pressure on Iran itself 
because of efforts to stop the nuclear program and it is hard 
to dramatically escalate solely on the terrorism front.
    On Syria, the fall of the Assad regime is desirable for a 
whole variety of reasons and would reduce Iran's influence, but 
this would not dramatically change Iran's support for terrorist 
groups. And in fact, even though the Lebanese Hezbollah would 
lose an important patron should the Assad regime change, Iran 
would be likely to double down on Hezbollah and that Hezbollah 
would become even more important. Iran would have fewer assets 
in the Arab world that have credibility, and this relationship 
would be even more important. Unfortunately, even though Syria 
is an important transit point for weapons to Lebanon, Lebanon 
is not a particularly difficult place to smuggle things in and 
out of, and I would not expect to see a dramatic change overall 
in Hezbollah's arsenal.
    In the end, Iran's lack of strategic options and desire to 
respond with what it sees as a hostile world will lead Tehran 
to continue to work with a range of terrorist groups. U.S. 
policy can reduce the scope and the scale of this, but it is 
not likely to end it altogether.
    Thank you.
    [The prepared statement of Dr. Byman follows:]

                   Prepared Statement of Daniel Byman

    Chairman Kerry, Ranking Member Lugar, members of this distinguished 
committee, and committee staff, thank you for the opportunity to 
testify today.
    Iran has long been one of the most important and dangerous sponsors 
of terrorism in the world. Although the Islamic Republic's motivations 
have varied over the years, its leaders have consistently viewed ties 
to and support for a range of terrorist groups as an important 
instrument of national power. Disturbingly, Iran's support for 
terrorism has become more aggressive in recent years, motivated by a 
mix of fear and opportunism. Iran could become even more aggressive in 
the years to come, exploiting the perceived protection it would gain if 
it developed a nuclear weapon or, if thwarted through military force or 
other means, using terrorists to vent its anger and take revenge. 
However, under current circumstances Tehran still remains unlikely to 
carry out the most extreme forms of terrorism, such as a mass-casualty 
attack similar to 9/11 or a strike involving a chemical, biological, or 
nuclear weapon.
    The United States should work with its allies to continue and 
expand an aggressive intelligence campaign to thwart Iran and its 
terrorist surrogates. After 9/11, the United States engaged in a 
comprehensive campaign against al-Qaeda: a similar global approach is 
needed to combat Iranian-backed terrorism. However, as the United 
States is already exerting tremendous pressure on Tehran via sanctions 
and diplomatic isolation because of Iran's nuclear program, there are 
few arrows left in America's quiver and thus the United States will 
find it hard to place additional pressure on Iran due to terrorism.
    In this statement I first lay out Iran's motivations for supporting 
an array of terrorist groups. I then offer explanations for how, and 
why, Iran is becoming more aggressive in its use of terrorism in 
response to a rapidly changing region. I then detail the dilemma 
regarding terrorism and Iran's nuclear program: allowing Iran to get 
the bomb is dangerous in and of itself and may make Tehran more 
aggressive in supporting terrorists, but a military strike to destroy 
the program is likely to lead Iran to use terrorism to take revenge. I 
conclude by presenting implications and recommendations for U.S. 
policy.\1\
              iran's motivations for supporting terrorism
    Since the 1979 Islamic revolution that toppled the Shah's 
government, Iran's clerical leadership has worked with an array of 
terrorist groups to advance its interests. Over 30 years later, this 
use of terrorism has continued and remains an important foreign policy 
instrument for Iran in its confrontation with its neighbors and with 
the United States. In his 2012 testimony, Director of National 
Intelligence (DNI) James Clapper warned that Iran continues ``plotting 
against U.S. or allied interests overseas.'' \2\
    Iran's most important, and most well-known, relationship is with 
the Lebanese group, Hezbollah. Iran helped midwife Hezbollah and has 
armed, trained, and funded it to the tune of well over $100 million a 
year--perhaps far more, depending on the year and the methodology used 
for the estimate. Iran's military aid included not only small arms and 
other typical terrorist weapons, but also antitank guided missiles, 
antiship cruise missiles, and thousands of rockets and artillery 
systems, making Hezbollah one of the most formidable substate groups in 
the world. Iranian personnel and Hezbollah operatives have even done 
joint operations together.
    Although Hezbollah was long subservient to Iran, this relationship 
has gradually evolved. Increasingly, Hezbollah is a partner to Tehran--
its leader, Hassan Nasrallah, has considerable stature in the Arab 
world, and the group's military resistance to Israel is widely admired. 
Hezbollah makes its own decisions with its own interests in mind.
    Despite the increasing parity in the relationship, Tehran continues 
to work closely with Hezbollah's leaders, and its intelligence and 
paramilitary personnel are tightly integrated with Hezbollah's external 
security apparatus. Hezbollah officials see their organization as 
Iran's ally, and Tehran's considerable financial and military support 
give it considerable clout with its friends in Hezbollah.
    Iran, however, has also backed a wide range of other groups. In 
Iraq it has worked with an array of Shia factions. Tehran also has ties 
to Sunni groups including Iraqi Kurdish organizations, Palestine 
Islamic Jihad, and Hamas. Perhaps most striking, Iran has even allied 
at times with al-Qaeda and the Taliban even though these groups are 
often violently anti-Shia and see Iran's leaders as apostates.
    One motivation for backing many of these groups is and remains 
ideological. At the creation of the Islamic Republic, Iran's leaders 
made no secret of their desire to extend Iran's revolution throughout 
the Muslim world. Iran's first Supreme Leader and founding ideologue, 
Ayatollah Ruhollah Khomeini, declared that Iran ``should try hard to 
export our revolution to the world.'' \3\ Khomeini's goal is embedded 
in Iran's Constitution and the charter documents of key organizations 
such as the Islamic Revolutionary Guard Corps (IRGC).
    To this end, Iran worked with a variety of Shia groups, most 
successfully the Lebanese Hezbollah but also Shia militants in Iraq, 
Bahrain, Pakistan, Afghanistan, and elsewhere, organizing them against 
rival groups and often against their host governments. Iran did this in 
part because it wanted to spread its revolutionary ideology, and it 
found some receptive adherents among embattled and oppressed Shia 
groups throughout the Muslim world, particularly in the years 
immediately after the revolution when the charismatic Ayatollah 
Khomeini was able to inspire many Shia communities to support his 
leadership, or at least admire his new regime.
    As its revolutionary fervor has worn off, Tehran increasingly 
employed terrorists for an array of strategic purposes. These include 
non-Shia terrorist groups with whom it gains little ideological 
sympathy. In addition, Iran has used even its closest terrorist allies, 
such as the Lebanese Hezbollah, for strategic purposes. These purposes 
include:

  <bullet> Undermining and bleeding rivals. Iran has regularly used 
        terrorist groups to weaken governments it opposes. This has 
        included bitter enemies like Saddam Hussein's Iraq and also 
        lesser foes like the rulers of Kuwait and Saudi Arabia. Tehran 
        also backs a wide array of insurgent groups that also use 
        terrorism in places like Iraq and Afghanistan. These groups may 
        advance Iran's interests in key countries or, at the very 
        least, undermine the position of rivals.
  <bullet> Power projection and playing spoiler. Tehran has a weak 
        military and only limited economic clout. Its ideological 
        appeal at the height of its revolutionary power was limited, 
        and today it is paltry. Nevertheless, Iran's regime sees itself 
        as a regional and even a world power, and working with 
        terrorists is a way for Iran to influence events far from its 
        borders. Iran's support for the Lebanese Hezbollah, Palestine 
        Islamic Jihad, and Hamas make Iran a player in the Israeli-
        Palestinian and Israeli-Arab disputes. This in turn gives Iran 
        stature and sway in the broader Middle East. Iran has supported 
        groups whose attacks disrupted Israeli-Palestinian and Israeli-
        Syrian peace negotiations--a victory for Iran, which sees the 
        negotiations as a betrayal of the Muslim cause and as a means 
        of isolating the clerical regime. Tehran has also repeatedly 
        assassinated opponents of the regime who lived in exile in 
        Europe or in other supposedly safe areas, using its own 
        operatives and those of terrorist allies like Hezbollah to do 
        so.
  <bullet> Gaining a voice in opposition councils. For Iran, it was 
        often important not just that an enemy regime lose power or be 
        weakened, but that particular strands within an opposition get 
        stronger. So in Lebanon, Iran undermined Amal, a Shia militia, 
        because it did not share Iran's ideology and interests. Tehran 
        helped found Hezbollah to replace it--a risky gamble that paid 
        off but could have easily backfired on Iran. In general, Iran 
        has used weapons, training, money, and other support to try to 
        unify potential militant allies and otherwise improve its 
        position among the opposition.
  <bullet> Deterrence. By having the ability to work with terrorists 
        and to subvert its enemies, Iran is able to press them to 
        distance themselves from the United States or to refrain from 
        joining economic or military efforts to press Iran. Such 
        efforts, however, often backfire: because these states see Iran 
        as meddling in their domestic affairs and supporting violence 
        there, they often become more, not less, willing to support 
        economic or even military pressure directed at Tehran.
  <bullet> Preserving options. As a weak state--one with little ability 
        to coerce via military or economic pressure--in a hostile 
        region, Tehran also seeks to keep its options open. Iranian 
        leaders recognize that in Iraq, Afghanistan, and other 
        turbulent countries, those in power today may be on the 
        sidelines tomorrow and vice versa. In addition, they may want 
        cordial relations with a neighbor at present but understand 
        that circumstances may change in the future. So Iran courts and 
        supports a range of violent groups even when it does not seek 
        to exploit their capabilities under current circumstances. 
        These groups can then be employed should Iran want to ratchet 
        up pressure or punish an enemy.

    Because Tehran's logic is often more strategic than ideological, 
Iran is willing to work with avowed enemies, though mutual mistrust 
limits the closeness of any relationship. So although many al-Qaeda 
supporters loath Iran, and some of them have killed Shia in Iraq, 
Pakistan, Afghanistan, and elsewhere with abandon, Iran has worked with 
al-Qaeda, at times allowing its operatives to transit Iran with little 
interference. Tehran has also given some al-Qaeda operatives a limited 
safe haven, though at the same time it often curtails their movements 
and has even turned some over to the custody of their home governments. 
Using a similar logic, Tehran at times work with the Taliban, with 
which Iran almost went to war in 1998, because they have mutual enemies 
and to preserve Iran's options.
    By working through terrorist groups like Hezbollah or using its own 
operatives in a clandestine way, Tehran has been able to distance 
itself from attacks and thus often evade responsibility. Even in cases 
like the 1996 Khobar Towers bombing, where Iran was ultimately found to 
be responsible, the time involved in proving Iranian culpability made 
it far harder to gain political and diplomatic support for a robust 
response. So deniability also makes terrorism an attractive option, 
allowing Iran to strike back but avoid the consequences of open 
aggression. So Iran is less likely to use mines and antiship cruise 
missiles to try to close the Strait of Hormuz, but could instead use 
terrorist attacks can be hard to trace directly to Tehran.
    Although it is always tempting to attribute a strategic motive to 
all of Iran's behavior, Iran's leaders have at times used terrorism 
simply to take revenge on their opponents. Tehran struck at France and 
the Gulf States in the 1980s, for example, because they supported 
Baghdad during the Iran-Iraq war. Similarly, some Iranian attacks on 
Israeli targets may in part be spurred by Iran's belief that Israel is 
behind the killing of Iranian nuclear scientists--Iran's actions may be 
as much about revenge as they are about any putative deterrence. 
Hezbollah, Iran's close ally, has also vowed revenge for the killing in 
Damascus in 2008 of the leader of its operations wing, Imad Mughniyah, 
believed to be at Israeli hands.
                      how and why iran is changing
    Iran aggressively supported an array of terrorist groups in the 
1980s, especially the Lebanese Hezbollah. Since the 1990s, Iran also 
championed Palestinian groups like Palestine Islamic Jihad and Hamas, 
supporting their efforts to carry out attacks in Israel and in the 
Palestinian territories. Tehran also worked with anti-U.S. insurgent 
groups in Afghanistan and Iraq. In terms of support for terrorism 
outside these theaters, however, the last Iranian-organized anti-U.S. 
attack was the 1996 strike on Khobar Towers, which killed 19 Americans. 
Yet Tehran has shown a renewed emphasis on terrorism outside the 
Israel/Lebanon/Palestine theater or war zones like Iraq and Afghanistan 
in the last year. Israel has been a particular focus, but Saudi Arabia 
and the United States also appear to be in Iran's sights:

  <bullet> On July 18, 2012, a suicide bomber blew himself up on a bus 
        carrying Israeli tourists in Bulgaria, killing five Israelis, 
        the driver, and himself and wounding over 30. Israeli officials 
        blamed Iran, though investigations to determine culpability are 
        still underway;
  <bullet> Several days before the Bulgaria attack, a Lebanese 
        Hezbollah operative was arrested in Cyprus, where he was 
        believed to be planning attacks on Israeli targets;
  <bullet> In 2012, Iranian-linked plots against Israel linked were 
        thwarted in Thailand, Georgia, and Azerbaijan;
  <bullet> In 2012, Iran carried out bombings in India and Georgia. In 
        New Delhi, an explosion wounded the wife of the Israeli defense 
        envoy and other passengers in her car;
  <bullet> Kenya authorities arrested two Iranian men believed to be 
        IRGC members in June 2012. The men admitted they were planning 
        attacks. Possible targets included American, Israeli, Saudi, or 
        British personnel and facilities;
  <bullet> In October 2011 the United States disrupted a plot to kill 
        the Saudi Ambassador in Washington by bombing the restaurant 
        where he often ate lunch. According to U.S. officials, the 
        planned bombing was orchestrated by Iran. Had the bomb gone off 
        as planned, it would also have killed many U.S. citizens dining 
        at the restaurant;
  <bullet> Israeli security officials claim that in the last 2 years 
        Iran and Hezbollah have plotted attacks in more than 20 
        countries.

    The aggressive pace of attacks against Israel, taken together with 
the plot against the Saudi Ambassador in Washington, indicates that 
Iran's use of terrorism is becoming more aggressive. In the past, 
Iranian-backed groups like Hezbollah did not strike in the United 
States, seeing it instead as a place to raise money and gain valuable 
specialized equipment, such as night-vision goggles. Now, however, Iran 
appears willing to risk this access as well as the wrath of the United 
States. As DNI Clapper contended, ``The 2011 plot to assassinate the 
Saudi Ambassador to the United States shows that some Iranian 
officials--probably including Supreme Leader Ali Khamenei--have changed 
their calculus and are now more willing to conduct an attack in the 
United States in response to real or perceived U.S. actions that 
threaten the regime.'' \4\
    A mix of fear and opportunism are driving Iran. As with other 
countries in the Middle East, the Arab Spring shook Iran. At first, 
Tehran tried to portray the revolution as a victory for Islamist and 
anti-U.S. forces, given that key allies of the United States like 
Mubarak fell during the turbulence. The new movements, however, evince 
little sympathy toward Tehran though some new leaders want to normalize 
relations to a greater degree. Indeed, some of the Islamist movements 
that are rising to power are exceptionally critical of Iran's form of 
Islamic governance.
    Most important to Iran, however, has been the crisis in Syria 
where, slowly, Bashar al-Assad's regime has been pushed to the wall. 
Tehran has few allies in the Arab world, and indeed in the world in 
general, but Syria is a true friend. The loss of Syria would be a huge 
blow to Iran, reducing its ability to meddle in Lebanon and in the 
Israeli-Palestinian and Israeli-Arab arenas. From Iran's point of view, 
the campaign against Syria is also part of the broader campaign to 
weaken Iran. Iranian and Hezbollah officials have made repeated 
statements blaming the United States and Israel for the unrest in 
Syria, though it is not clear how much they believe their own rhetoric.
    Palestinian politics have also shifted markedly and for the worse 
from Tehran's point of view. After Hamas' founding in 1987, the 
relationship between Iran and Hamas was polite but limited. Hamas 
received money, arms, and training from Iran and Hezbollah, but Hamas 
kept Tehran at arms' length, as its leaders were determined to avoid 
dependence on foreign sponsors, which had often doomed other 
Palestinian organizations. Ties became far stronger when Hamas seized 
power in Gaza in 2007 and, facing international isolation, sought more 
aid from Iran as well as weapons systems. Now this relationship has 
frayed. Open ties to Iran, always unpopular among many Sunni Islamists, 
are further tarnished because of Tehran's support for the regime 
oppression in Syria. Hamas' leadership has largely left Syria, going to 
Egypt and other countries. Some Hamas leaders have also criticized the 
Assad regime's crackdown and, in so doing, implicitly criticized Iran's 
support for Damascus. So Iran has lost influence with its most 
important Palestinian partner and lost support among Palestinians in 
general.
    Tehran also sees Israel and the United States as on the offensive. 
The killing of Iranian nuclear scientists, explosions that destroyed 
Iranian missile facilities, the cyber attack that set back Iran's 
nuclear program, and other aggressive, but covert, measures are 
considered part of a low-level but nevertheless real war that the 
United States and Israel are engaged in--one that has escalated in 
recent years. From Iran's point of view, its own violence is a response 
to the war that is already being waged against the clerical regime.
    The impressive sanctions the United States and its allies have 
orchestrated against Iran have hit the regime hard. Regime officials 
have admitted that the sanctions are causing Tehran serious economic 
problems, a rare public confession that U.S. policy is having an 
impact, as opposed to the usual rhetoric of defiance. In addition, the 
cutback in oil purchases from Iran's important customers has led to a 
plunge in the price and volume of Iran's most important export and 
lifeblood of the Iranian economy. Beyond the economic impact, the 
success of these measures also reinforces Tehran's sense of diplomatic 
isolation.
    Yet even as Iran feels the pressure, it also believes that it can 
fight back. Iranian officials see the United States as on its heels 
given its withdrawal from Iraq and the coming drawdown in Afghanistan. 
In both instances, the United States initially vowed to transform the 
country and isolate pro-Iranian voices. In Iraq, Iran today is the most 
influential outside power, particularly in Shia areas though Iran also 
has sway in the Kurdish north. Iran is less powerful in Afghanistan, 
where Pakistan is the dominant force backing anti-U.S. and antiregime 
elements. However, there, too, the United States is leaving without 
achieving its proclaimed objectives, and anti-U.S. forces may fill the 
void. In both cases, the violence in these countries--supported in part 
by Iran--was a major factor influencing U.S. decisions to reduce its 
commitment. So from Iran's point of view, the lesson is simple: hit the 
United States hard and persistently, and it will back down.
    A shift in domestic politics may also explain Tehran's more 
aggressive policies. Since the early 1990s, it has been common to 
divide the complex Iranian political scene and describe it as a battle 
between ``hardliners'' and ``pragmatists.'' And during the tenure of 
President Mohammad Khatami (1997-2005) and the so-called ``Green 
Revolution'' (2009) there was hope that Tehran would reform and embrace 
a more moderate foreign policy or even that the clerical regime as we 
know it would collapse. In crushing the reformist movement and the 
Green Revolution, Iran's hardline camp has narrowed the Iranian 
political scene. Within elite ranks, there are fewer voices that 
question the value of ties to terrorists. In recent years hardliners 
from the IRGC have entered politics in greater numbers and assumed more 
important positions in the national security bureaucracy. For the most 
part these individuals are not fanatical, but they have a worldview 
that sees revolutionary violence as valuable for its own sake and an 
important tool of state.
                          the nuclear dilemma
    From a counterterrorism point of view, the question of how to 
respond to Iran's nuclear program is fraught with problems. The so-
called ``shadow war'' between Israel and Iran, as the Bulgaria attack 
may indicate, has created a retaliatory dynamic, with Iran feeling 
compelled to respond to what it sees as Israeli aggression. This 
sentiment comes from a desire to prove to the Iranian population at 
large that its government is responding, anger within key elite 
audiences (particularly the IRGC) and a sense of humiliation, and a 
strong belief in revenge. So as long as Israel and other states use 
low-level attacks on Iran and maintain a high degree of economic and 
political pressure, Iran is likely to attempt terrorist attacks as a 
response.
    If Israel and/or the United States did a direct military strike on 
Iran's suspected nuclear facilities, the Iranian terrorist response 
would be considerable. Because Iran supports terrorists in part to keep 
its options open, now would be the time for Tehran to call in favors. 
We could expect attempted terrorist attacks around the world--Iran and 
Hezbollah have shown a presence in every inhabited continent. Tehran 
would also try to call in favors from groups like al-Qaeda, Palestine 
Islamic Jihad, and others with whom it has relationships, though these 
groups would be far less dependable and their personnel are less 
skilled than those of Hezbollah. In addition, Iran would be 
particularly likely to step up support for anti-U.S. forces in 
Afghanistan and elsewhere in its neighborhood. The scope and scale of 
the response would depend on the level of casualties from any attack 
and the political circumstances of the regime in Tehran at the time the 
attack occurred. However, Iran would be likely to attempt multiple 
attacks, and it would also consider strikes on the American homeland as 
well as American diplomatic, military, and civilian institutions 
worldwide.
    Should Iran acquire a nuclear weapon, however, the picture is 
likely to change considerably. To be clear, Iran acquiring a nuclear 
weapon is bad for the United States and its allies in a host of ways, 
and preventing this should be a top goal of any U.S. administration. If 
U.S. policy fails and Iran does acquire a nuclear weapon, it is 
difficult to predict how Tehran would behave. Some scholars have argued 
the theoretical point that, in general, nuclear weapons make states 
more cautious as they fear the potentially catastrophic escalation that 
a nuclear crisis could bring about. Thus Iran, more secure due to the 
nuclear weapons and more cautious because of the associated risks, 
would be more restrained in its foreign policy.\5\ More likely, though 
hardly inevitable, is that Tehran might become emboldened by a nuclear 
weapon. Currently the threat of U.S. conventional retaliation is an 
important check on Iranian behavior, as Tehran recognizes that its 
forces are no match for the United States. A nuclear weapon, however, 
would give Tehran the ability to threaten a devastating response should 
it be attacked with conventional forces. This ``umbrella'' would then 
enable Iran to be more aggressive supporting substate groups like 
Hezbollah or opposition forces against various Arab enemies. The model 
here would be Pakistan: after acquiring a nuclear capability, and thus 
it believed a degree of immunity from India's superior conventional 
forces, Islamabad became more aggressive supporting various insurgent 
and terrorist groups in Kashmir and fighting New Delhi in general.
    The silver lining is that Iran is not likely to pass a nuclear 
weapon to terrorist groups except under the most extreme circumstances. 
Tehran would not be likely to trust such a sensitive capability to a 
terrorist group--too much could go too wrong in too many ways. In 
addition, even a more emboldened Tehran would recognize that the United 
States and Israel would see such a transfer as a grave threat and would 
dramatically escalate their pressure on Iran, perhaps including 
significant military operations. In addition, the United States might 
be able to gain international support as almost all states, including 
China and Russia, fear such transfers. Moscow and Beijing have their 
own terrorism problems. While deniability might stay the U.S. hand from 
retaliation for a limited conventional attack, this would not be so for 
a more dramatic chemical attack, to say nothing of a catastrophic 
nuclear one. After an attack using unconventional weapons, all bets 
would be off. One indication of Iran's caution on this score is that it 
has not transferred much less lethal and controversial chemical weapons 
to Hezbollah, despite having these in its arsenal for over 25 years. 
Groups like Hezbollah, for their part, would fear the consequences of 
going nuclear, recognizing that this could lead to U.S., Israeli, and 
other countries' military actions that could threaten its position in 
Lebanon. In addition, these groups have proven quite capable in using 
rockets, explosives, and small arms to achieve their objectives.
    However, should the clerical regime believe itself to be facing an 
imminent threat of regime change from the United States and its 
allies--a situation comparable to what Saddam Hussein faced in 2003 
say--then the calculus would change dramatically. From Tehran's point 
of view, the United States and others would have already escalated 
beyond the point of no return. Tehran would have nothing to lose, and 
at least a chance of intimidating or deterring the United States, by 
such transfers. They might also fear that preemptive U.S. strikes would 
stop them from being able to launch their deterrent so transferring 
some items to a terrorist group would enable them to keep open the 
threat of a response even if much of their country were occupied. In 
addition, Iranian leaders may seek revenge or simply want to vent their 
rage and use terrorists to do so.
                         policy recommendations
    Because Iran's use of terrorism often follows a strategic and 
rational logic, U.S. policy can affect Tehran's calculus on whether to 
support groups, and on how much to do so.
    A first U.S. step is to expand efforts with allies to fight 
Iranian-backed terrorism, including by Hezbollah. Too often Hezbollah 
has gotten a free pass with U.S. allies because it also engages in 
political and social welfare activity, leading some states to try to 
distinguish between its ``legitimate'' and ``illegitimate'' sides. By 
making it clear that any use of or support for terrorism by Hezbollah 
is illegitimate, allies would push the Lebanese organization toward 
ending or at least reducing its use of violence.
    In addition, the intelligence and police campaign against Hezbollah 
and Iran could be ramped up, leading to more investigations, arrests, 
and disruptions that make it far harder for the group and for Iranian 
officials to conduct successful attacks. Allies should also be 
encouraged to reduce the size of the Iranian diplomatic mission, as in 
some countries many of its true activities are related to intelligence 
gathering and support for militant organizations.
    The United States has long made Iran's subversive networks and ties 
to Hezbollah an intelligence priority. However, given the global reach 
of this adversary, a global response is necessary. This requires 
working with allies around the world, just as the United States has 
done against al-Qaeda. Indeed, these friends are often, though not 
always, the same allies who are partners against al-Qaeda, but it is 
vital to ensure--with financial and other support as appropriate--that 
they are also targeting Hezbollah and other Iranian-backed groups. 
Hezbollah, however, is seen as legitimate by many governments, or at 
the very least is not loathed by all as is al-Qaeda. So it will be hard 
to conduct as comprehensive a campaign without considerable and 
sustained efforts.
    Making the challenge harder, the United States has relatively few 
additional means of pressure to deploy directly against Iran because it 
is already using most of them to stop Iran's nuclear programs. 
Sanctions--targeted and broad--are already implemented against an array 
of Iranian targets. They have been expanded dramatically under the 
Obama administration and this effort should continue, but it will be 
hard to do much more under current political circumstances. Any 
terrorist actions or aggressive ones on the nuclear front, however, 
should be leveraged for the other issue. So when a terrorist attack 
does occur, Washington should press for more to be done on the nuclear 
front, as such actions create an opportunity for political engagement.
    The United States must also set clear ``redlines'' regarding 
terrorism. For example U.S. officials should emphasize that attacks on 
the American homeland will meet with a severe response. Vital to the 
success of this, however, is deciding in advance what a response would 
be if a redline were crossed and then having the will and ability to 
carry out the response should this happen. On Iran's nuclear program 
and on its actions in Iraq and Afghanistan, Tehran repeatedly crossed 
U.S. redlines in the last decade with relatively few consequences, 
reducing the credibility of future U.S. threats. If the United States 
is not serious about a response, it is better not to threaten at all.
    Another priority is trying to sever the links between Iran and al-
Qaeda. In contrast to Hezbollah, al-Qaeda is not ideologically close to 
Tehran and does not appear to have done joint operations. On the other 
hand, al-Qaeda is far more willing to conduct large-scale 
indiscriminate attacks, including the use of chemical, biological, or 
nuclear weapons should they ever fall into the hands of Zawahiri's 
organization. At the same time, Iran has become more important to al-
Qaeda in recent years as regime pressure on the organization there has 
eased and the drone program in Pakistan has made that country a more 
difficult haven. Tehran, however, has largely gotten a free pass on the 
significant al-Qaeda presence in its borders.
    Limited military strikes, which often fail against terrorist groups 
or quasi-states like the Taliban's Afghanistan, have more of a chance 
of succeeding against countries like Iran, that have a real military 
and economic infrastructure. Demonstrative uses of forces, such as the 
1987 and 1988 U.S. operations (Nimble Archer and Praying Mantis, 
respectively) that sank part of the Iranian navy, can reinforce U.S. 
deterrence if Iran crosses redlines. Because of Iran's severe economic 
difficulties, even the threat of such strikes would be taken seriously 
by Iranian leaders.
    The fall of the Assad regime in Syria is desirable and would reduce 
Iran's influence, but it would not dramatically change Tehran's support 
for terrorism and may even increase Iran's reliance on substate groups. 
Although Hezbollah would lose an important patron should the regime in 
Damascus change, and it would be harder to ship weapons to Lebanon via 
Syria, the importance of Hezbollah would grow for Iran. It remains 
relatively easy to send weapons to Lebanon without transiting Syria, 
and Hezbollah's role in the Lebanese Government (and control of 
Beirut's airport) makes it almost impossible to stop the flow of 
weapons there. So Iran may end up doubling down on substate groups if 
it loses its main regional ally.
    In the end, Iran's lack of strategic options and desire to respond 
to what it sees as a hostile world will lead Tehran to continue to work 
with a range of terrorist groups and selectively use violence. 
Successful U.S. policy can reduce the scope and scale of Iranian 
violence, but it is not likely to end it altogether.

----------------
End Notes

    \1\ This testimony draws extensively on two of my books: Deadly 
Connections: States that Sponsor Terrorism (Cambridge, 2005) and ``A 
High Price: The Triumphs and Failures of Israeli Counterterrorism'' 
(Oxford, 2011). Also relevant to my testimony and to this hearing are 
my articles, ``Iran, Terrorism, and Weapons of Mass Destruction,'' 
Studies in Conflict and Terrorism Vol. 31 (2008), pp. 169-181 and ``The 
Lebanese Hezbollah and Israeli Counterterrorism,'' ``Studies in 
Conflict and Terrorism,'' Vol. 34 (2011), pp. 917-941.
    \2\ James Clapper, ``U.S. Intelligence Community Worldwide Threat 
Assessment,'' January 31, 2012. http://www.cfr.org/intelligence/
clappers-testimony-worldwide-threat-assessment-january-2012/p27253.
    \3\ As quoted in Anoushiravan Ehteshami, ``After Khomeini'' 
(Routledge, 1995), p. 131.
    \4\ Clapper, ``U.S. Intelligence Community Worldwide Threat 
Assessment.''
    \5\ See most prominently Kenneth N. Waltz, ``Why Iran Should Get 
the Bomb,'' Foreign Affairs (July/August 2012), http://
www.foreignaffairs.com/articles/137731/kenneth-n-waltz/why-iran-should-
get-the-bomb.

    Senator Casey. Thank you, Doctor.
    Ms. Pletka.

   STATEMENT OF DANIELLE PLETKA, VICE PRESIDENT, FOREIGN AND 
DEFENSE POLICY, AMERICAN ENTERPRISE INSTITUTE, WASHINGTON, D.C.

    Ms. Pletka. Thank you, Mr. Chairman, Senator Risch, Senator 
Corker. I say it every time and I mean it every time. It really 
is an honor for me, a special honor, to come back to the 
committee. I consider it really a pleasure.
    I think we all agree on a lot of the basics here. Iran is 
probably the most important state sponsor of terrorism in the 
world today. There have been, in addition to the attack in 
Bulgaria last week, an attempted attack in Cyprus the week 
before, seven additional recent attempted attacks by Iran 
against a variety of targets around the world, not just in the 
Middle East, in recent months. So it is clear that Iran is 
stepping up its terrorist activity and not too worried, by the 
way, about the consequences.
    It is important to underscore that Iran's relationship with 
terrorist groups, which it manages through the IRGC, the 
Iranian Revolutionary Guard Corps, and through the Quds Force 
is not just one of support. It is operational. It is financial. 
It is political, and it is military. The Iranian Government 
really does actually manage some of the attacks that it 
conducts through its proxies. The best example and the one that 
we have the most detailed public information about was the 
attack by Saudi Hezbollah on our troops at Khobar Towers. There 
is an indictment in the Eastern District Court in Virginia that 
details the Iranian operational command for that attack. 
Nothing has ever happened as a result.
    Iran also foments conflict like the one between Hezbollah 
and Israel in 2006. But there is another thing that it does 
that has been very important during the Arab Spring, and that 
is that they are free riders on Shia grievances throughout the 
region. The Shia are largely oppressed in Sunni-dominated Arab 
governments, and the Iranians have very cleverly managed to 
free ride on their legitimate grievances in places like Bahrain 
and in Saudi Arabia, among the Houthi rebels in Yemen and in 
many ways discredit the legitimate claims of those Shia 
minorities, which has been opportunistic and really a serious 
problem for those of us who see the importance of supporting 
those minorities.
    In terms of the depth and the financing and the 
interconnectedness, I think we have all made clear, as did you, 
Mr. Chairman, in your opening statement, that Hezbollah is the 
most important terrorist proxy for Iran. It is unclear at this 
moment, I think, to many of us how far Hezbollah would be 
willing to go to support Iran. So, for example, in the event of 
an Israeli strike on Iran, none of us are exactly sure what 
Hezbollah would do. On the one hand, Sheikh Hassan Nasrallah, 
who is the spiritual leader of Hezbollah, has said in a speech 
last year that Iran would never ask Hezbollah to do anything on 
its behalf in the event of an Israeli strike. On the other 
hand, just a couple of nights ago, Nasrallah gave a huge speech 
in which he extolled the virtues of their Syrian sponsors and 
of Iran. So I think it is pretty unclear what any groups would 
do in the event of an Israeli strike on Iran.
    That does bring us to the question of Iran and the Arab 
Spring, and I agree with my colleagues. In large part, the Arab 
Spring has been bad news for Iran rather than good. You know, 
they have tried to lay their mantel over it and call the Arab 
Spring an Islamic Awakening, and absolutely nobody has either 
taken up that name, nor have they frankly latched onto the 
Iranians as a model.
    Their biggest hopes, I think, centered on Egypt, and in the 
immediate wake of Mubarak's fall, there was really quite a lot 
of talk about renewing Egyptian-Iranian ties. So you heard it 
from the Egyptians, from both the military and from the Muslim 
Brotherhood. Yes, why not? Very positive, a lot of nice 
statements, promises for mutual visits. But the bottom line is 
none of that has happened. Now, we can suggest that that was 
because of gulf pressure or because of U.S. pressure, but at 
the end of the day, none of that rapprochement that I think the 
Iranians were pretty desperately hoping for--and they made a 
number of very public, very clingy, desperate statements that 
made it clear they had their hopes vested in the new Egyptian 
Government. None of that has happened.
    Syria. Again, I agree. I think we have a real consensus 
around the fact that the fall of the Assad regime would be bad 
news for the Iranians. That is really their only important Arab 
ally remaining. I think there is some disagreement about what 
the impact would be after the fall of Assad, and I am happy to 
talk about that afterward. But it does seem clear that Syria 
has been the conduit for weapons supplies to a whole variety of 
terrorist groups, Hezbollah, but also Hamas, Palestinian 
Islamic Jihad, and others. Without that conduit, it is exactly 
right. They would have to use Lebanon, and that has very 
complex implications for Lebanon. Lebanon enjoys a different 
relationship with the United States right now than Syria did. I 
am not sure they wish to become the new Syria in the region.
    But whether it is the IRGC presence in Syria--they also 
have done joint training on chemical weapons, weaponization. 
They may have cooperated on nuclear weapons work. Just trade 
and economic ties, clearly that was a very, very important 
relationship.
    The problem for us is that just as the tide has turned 
against Iran's fortunes in the region and we have begun to ramp 
up sanctions against Iran because of their nuclear program, the 
United States is perceived to be pulling back in the region. 
And so that has real implications for us and our ability to 
leverage the Iranians on any number of questions, whether it is 
interference in Iraq, whether it is interference in Syria, or 
anything else.
    If we look at the Iranian nuclear program, it seems pretty 
clear that it will certainly embolden the Iranians on their 
support for terrorism rather than the reverse. I do not think 
that they are going to let go of these groups because of the 
nuclear sanctions, and even if we manage to come to some 
agreement, there seems no reason for them to abandon their 
support for terrorist groups because they have never done so 
before and because they have never really paid a high price for 
supporting those groups. Even in the case of the loss of up to 
1,000 servicemen's lives in Iraq, the Iranians have paid very 
little price.
    I am just going to take an additional couple of seconds and 
talk about specific steps we might be able to take to help 
counter Iranian support for terrorism in the Middle East.
    It seems, first of all, that Syria is in fact much more 
important than many will allow. We should be doing more to 
hasten the fall of Assad, not just talking about a transition 
but in fact doing more to support those who are fighting 
against him.
    Second, on Lebanon, our Assistant Administrator for the 
Middle East was just in Lebanon. Our aid programs to Lebanon 
have continued unabated despite the fact that Hezbollah 
dominates the government. That may be the right choice, but it 
is still something worth discussing particularly if the 
Lebanese-Iranian relationship ends up ramping up. We have not 
fought Iran on any of the ground that it works on in the Middle 
East, its support for the Palestinians. I mean, seriously, who 
has done more for the Palestinians? Iran or the United States? 
Yet, you do not hear us engaging in those kinds of arguments. 
We are not fighting Iran on the territory that it has sought to 
take for itself. So I think it is time for us to try and fight 
Iran at its own game and do it more effectively, more vocally, 
let people be aware that we are not willing to tolerate this 
continuing throughout the region, throughout the world.
    Thank you very much.
    [The prepared statement of Ms. Pletka follows:]

                 Prepared Statement of Danielle Pletka

    Mr. Chairman and members of the committee, I say it every time, and 
mean it every time: It is always a special honor for me to testify 
before the Senate Foreign Relations Committee, on which I served as a 
staffer for so many years.
    Iran is the most significant state sponsor of terrorism in the 
world today. The Islamic Republic has held that title for many years, 
and as the attacks last week in Bulgaria against an Israeli tourist 
group, an attempted attack the week before in Cyprus, several failed 
attacks earlier this year against Israeli targets in Asia and a litany 
too long to read of incidents both directed by and perpetrated by Iran 
over the last three-plus decades make clear, nothing is slowing them 
down.
    As a technical matter, Iran's relationship with terrorist groups is 
generally managed through the Iranian Revolutionary Guards Corps, and 
more specifically by its Quds Force headed by Qassem Soleimani. But 
that tasking should in no way be construed as separate from the Supreme 
Leader and Iran's Government. The IRGC acts for the regime.
    Iran's relationship with terrorist groups--about which I will be 
more specific below--is operational, financial, political and military. 
Iranian Government officials have been known to direct, manage, and 
support attacks throughout the world. Nor have Israelis been Iran's 
only victims; at the hands of Iranian-supported special groups in Iraq, 
more than a thousand American soldiers lost their lives. At the hands 
of Hezbollah, we have lost diplomats, CIA officials, servicemen, and 
civilians. Iran was directly behind the attacks on Khobar Towers in 
Saudi Arabia in 1996 that killed 19 U.S. servicemen. Even now, Iran is 
arming the Taliban in Afghanistan even as it opposes the group for 
political reasons.\1\
    The Iranian Government foments conflict, such as the one between 
Israel and Hezbollah in 2006, but also free rides on legitimate Shia 
grievances in a region overwhelmingly dominated by Sunni Arabs. As a 
result, we see Iran's hand in the recent Bahraini uprising--something 
that has discredited a legitimate quest for equal rights for the 
Bahraini Shia; we have seen Tehran supporting Houthi tribes on the 
Saudi-Yemeni border; and most prominently at the national level, we 
have seen IRGC forces working hand in hand with the Syrian regime to 
take down the Syrian rebellion and protect their most important ally in 
the region, Bashar al-Assad.
    The groups with which Iran is most prominently associated right now 
are Hezbollah, both a political party that now dominates the Lebanese 
Government and a terrorist group with years of vicious attacks to its 
credit; Hamas, which governs the Gaza Strip and has also been 
responsible for the death of hundreds of civilians; and Palestinian 
Islamic Jihad, a smaller group operating in the Palestinian 
territories. Over the years, Iran has also supported numerous other 
terrorist groups such as Saudi Hezbollah, the Popular Front for the 
Liberation of Palestine, the Popular Front for the Liberation of 
Palestine-General Command, and others.
    In terms of depth, financing, and interconnectedness, Iran's 
relationship with Hezbollah is clearly the most important. Hezbollah 
was created with Iranian sponsors in 1982, and continues to be--for the 
most part--loyal to its patron. Directly because of Iran, Hezbollah is 
now the most lethal terror group in the world, armed with long-range 
missiles capable of carrying chemical munitions and using guidance 
systems to hit a target.\2\ This despite U.N. Security Council 
Resolution 1701 which, in the wake of the 2006 war with Israel, forbade 
the transfer of arms to the group.
    It is unclear just how far Hezbollah would go for its friends in 
Tehran; Hassan Nasrallah, the group's spiritual leader, has claimed 
that Iran would never ask Hezbollah to step in in the event of an 
Israeli strike on Iranian nuclear facilities. On the other hand, he has 
been increasingly frank about the depth of Hezbollah ties to Iran in 
recent years, and the group has certainly proven itself willing to 
fight for its friends: witness Hezbollah's role in Syria, and 
Nasrallah's speech last week extolling the virtues of the Assad 
regime.\3\
    This brings us neatly to the question of Iran and the Arab Spring. 
On balance, whatever you may choose to call this moment in history--the 
Arab Spring, the Arab Awakening, the Arab Revolts--one thing is clear: 
It has been bad for Iran. Ironically, in the case of Libya, Tunisia, 
Bahrain, Yemen, and especially Egypt, the Tehran government has tried 
almost desperately to claim that the popular revolutions that have 
swept the Arab world are inspired by Iran. The regime has tried without 
success to popularize the term ``Islamic Awakening'' for the events of 
the last 2 years.
    Iranian hopes for the Arab Spring have centered on Egypt. Some in 
the West and many in Tehran believed that the overthrow of the Mubarak 
guard in Cairo and the rise of the Muslim Brotherhood would mean an end 
to the animosity that has existed between the two countries since the 
Islamic revolution. And at the outset, there was indeed a lot of talk 
of renewing ties, mutual visits, new beginnings and beautiful 
rapprochement. Iranian military vessels were permitted to pass through 
Suez for the first time, and have passed through since.
    But none of the anticipated flowering of Egyptian-Iranian 
relations--none--has come to pass. No visas, no mutual visits, no 
nothing. Indeed, it's safe to argue that the Muslim Brotherhood 
dislikes Iran about as much as its predecessors in Egypt's Presidential 
Palace.
    And then there is Syria, Iran's most important relationship in the 
region. There has clearly been little applause in Tehran for any 
``awakening'' in Damascus. Remember, the Assads have toed Tehran's line 
for many years; even when Hamas decided to abandon its longtime perch 
in Damascus, Tehran was unswayed. Damascus has been the conduit for 
most weapons flows from Iran to Hezbollah, its most important 
diplomatic friend; even when, in 2009 and 2010, there were suspicions 
that Damascus would defect to the West and make a separate peace with 
Israel, it was only a small blip in an otherwise congenial relationship 
between Tehran and Damascus.
    Whether it was the IRGC presence in Syria, joint training on 
chemical weapons and weaponization, possible cooperation on nuclear 
weapons work, or simply mundane trade and economic cooperation, the two 
countries have maintained the appearance and many of the trappings of a 
strong partnership. Tehran will work hard to preserve the Assad regime. 
It will fail, in my opinion, but it will work hard. Even as it has 
become clear that Assad is on his way out, the Iranian leadership has 
stuck by him.
    Ironically, just as the tide has turned against Iran's fortunes in 
the region, and just as we have begun to seriously ramp up sanctions 
because of its nuclear weapons program, the United States appears to 
have drawn back from the Middle East. Yes, we have several carriers in 
the gulf, and yes, various Cabinet Secretaries have wended their way 
through both the gulf and the Levant in recent months; nonetheless, the 
perception in the region (among Arabs and Israelis), in Europe and 
among many here in Washington is that the United States has disengaged 
from the Middle East.
    Strategic guidance from the White House has insisted upon the so-
called ``pivot'' to Asia, which is taken by most--including inside the 
administration--to mean a turn away from the last decade, and with it 
the conflicts in Iraq and Afghanistan. As a result, at a moment when 
Iran is arguably as isolated as it has been in its history, the United 
States is talking up the Pacific.
    We don't know what will happen in the coming months; there could be 
a military strike against Iran's nuclear program. If there is not, most 
credible analysts agree that Iran will soon have sufficient low 
enriched uranium to fashion more than one nuclear weapon in fairly 
short order.
    There has been a sterile debate in Washington about whether Iran 
will ``break-out'' with its nuclear weapons program or content itself 
with the knowledge that it can ultimately break-out with an enhanced 
second strike capability. We have no idea which option Iran will 
choose, though intelligence agencies reportedly lean toward the latter.
    No matter the trajectory of its nuclear program, it seems clear 
that Iran will not abandon its terrorist proxies. Tehran has shown no 
sign that it is rethinking support for any group, though among 
Palestinians it is clear that Hamas is in bad odor for having abandoned 
the Assad regime. Nonetheless, Palestinian Islamic Jihad, which has 
received substantial amounts of what passes for love from the Islamic 
Republic in recent months, has insufficient capacity to be Iran's sole 
proxy in the battle against Israel.
    So how will Iran behave once it possesses either a nuclear weapon 
or the capacity to fashion one or two in short order? None of us can 
predict, but we have ample indication from past history to guess how 
Iran will behave. The use of proxies has been immensely rewarding for 
Tehran. The regime has paid a very low price for sponsorship of 
terrorist attacks from the Marine Barracks bombing in 1983 to the 
attacks of this last week. Iran has the capacity to attack from 
Argentina to Venezuela, in Asia, in Europe, and throughout the Middle 
East. It seems naive to believe it does not have the capacity to launch 
attacks in the United States.\4\
    Iran has rarely seen justice for its support for terrorism: an 
indictment for the 1996 Khobar Towers bombing sits uselessly in U.S. 
District Court.\5\ It has hardly paid a price for flouting Security 
Council strictures on exporting weapons to Hezbollah.
    It has never paid a price for the 1,000 U.S. servicemen's lives 
taken by Iranian groups in Iraq.\6\ Would Tehran really feel less 
empowered once it has a nuclear weapon or the materiel to create one?
    Does that mean that nukes would be on the way to Hezbollah or Hamas 
or others? Certainly, the sophistication and range of weaponry Iran has 
been willing to supply to Hezbollah has been remarkable, and has 
escalated dramatically in recent years. But no one can answer that 
question with any reliability. There are some who are persuaded that 
the Syrian nuclear weapons program that was attacked by Israel in 2007 
was, at least in part, pursued in cooperation with Iran,\7\ though we 
have not seen any public evidence to confirm that's the case.
    Ultimately, we have no reason whatsoever to believe that Iran 
understands there are consequences to its behavior. And it is only such 
a belief that would comprise a credible deterrent to a nuclear Iran.
    In terms of options for the United States, it is clear that 
disengagement at this time is exactly the wrong choice. More than ever, 
there are democrats in the Middle East who are clamoring for our 
support--whether moral, political, or economic. The right choice is to 
double down on democratic revolutions--even those that do not result in 
governments we would ourselves choose. We are interested in rule of 
law, not specific rulers.
    Regarding specific steps we could take to counter Iranian support 
for terrorism in the Middle East, first and foremost let's look at 
Syria. Many disagree about what to do about the fighting there. One 
thing few disagree about is that the fall of the house of Assad would 
be devastating to Iran. So we clearly have an interest in Syria's 
future.
    Second, it seems only natural that Iran will turn to Lebanon as its 
only remaining option for a proxy in the Arab world. There are 
constraints on Hezbollah that could prevent it from making Lebanon the 
new Syria, including powerful opposition groups; but you would never 
know it to listen to U.S. policy. Our aid programs of more than $100 
million per annum have continued unabated. Our silence regarding 
illegal weapons transfers to Hezbollah has rightly been taken as 
indifference to the fate of the Lebanese state.
    Nor have we fought Iran on its own ground on the issues it hold so 
dear. Who is the tribune of the Palestinian people? Iran? Really? We 
have done more for Palestinians over the last decades than Iran ever 
did. We could begin to further undercut groups like Hamas and 
Palestinian Islamic Jihad by insisting that Palestinians begin moving 
out of refugee camps and by emphasizing rule of law and institution 
building, rather than the peace process.
    We could rethink our decision to cede Iraq to Iranian influence and 
begin to embrace the notion of Iraq as the Shia leader of the region 
rather than Iran.
    The time has come to undercut Iran at its own political game, all 
the while holding Tehran responsible for the terrorism it sponsors. If 
Hezbollah wants to continue as Iran's proxy, then aid to Lebanon needs 
to be reconsidered. If some among the Palestinians wish to continue to 
play footsie with Iran, then we, and the Arabs, and the Europeans need 
to ensure that Iran is their only donor.
    Our policy is one, in effect, of tolerance for Iran's sponsorship 
of terrorism. Tehran will only be more emboldened by advanced weapons. 
Neither Supreme Leader Khamenei nor President Ahmadinejad are persuaded 
we will truly fight back. Perhaps it's time to consider doing just that 
on every possible front.

----------------
End Notes

    \1\ ``Hague fury as `Iranian arms' bound for Taliban seized,'' BBC 
News, March 9, 2011,http://www.bbc.co.uk/news/uk-12694266.
    \2\ Thomas Donnelly, Danielle Pletka, and Maseh Zarif. ``Containing 
and Deterring a Nuclear Iran'' (Report by American Enterprise 
Institute, December 2011), 22.
    \3\ ``Nasrallah Hails Slain Syrian Officials as `Martyrs,' says 
Relation with Aoun Strategic,'' Naharnet Newsdesk, July 19, 2012, 
http://www.naharnet.com/stories/en/47064.
    \4\ Suzanne Kelley, ``Experts: Hezbollah positioned for attack in 
US,'' CNN.com, March 21, 2012. http://security.blogs.cnn.com/2012/03/
21/house-panel-hears-testimony-on-hezbollah-in-u-s/.
    \5\ United States District Court Eastern District of Virginia, 
Alexandria Division. Khobar Indictment. June 2001. http://
www.au.af.mil/au/awc/awcgate/khobar/khobar_indictment.pdf.
    \6\ Michael Christie, ``Quarter of US Iraq Deaths due to Iran-
groups envoy,'' Reuters, August 26, 2012, http://www.reuters.com/
article/2010/08/26/idUSLDE67P22D.
    \7\ Avi Issacharoff, Barak Ravid, and Amos Harel, ``Syria: There 
are no N. Korea-Syria nuclear facilities whatsoever,'' Haaretz, 
September 12, 2007, http://www.haaretz.com/news/syria-there-are-no-n-
korea-syria-nuclear-facilities-whatsoever-1.229277.

    Senator Casey. Thanks very much.
    Dr. Levitt.

 STATEMENT OF DR. MATTHEW LEVITT, SENIOR FELLOW AND DIRECTOR, 
STEIN PROGRAM ON COUNTERTERRORISM AND INTELLIGENCE, WASHINGTON 
         INSTITUTE FOR NEAR EAST POLICY, WASHINGTON, DC

    Dr. Levitt. Thank you, Chairman Casey, Ranking Member 
Risch, Senator Corker. It is a pleasure to be here.
    The advantage to going last is that so much has been said 
already that I agree with that I should be able to keep under 
the 5 minutes. Let us see if I can hold to that.
    Iranian state sponsorship of terrorism can be broken down 
into two basic baskets. First, its support to other groups, 
especially in the Middle East, such as Hamas, the Palestinian 
Islamic Jihad, the Gulf militants, but potentially groups 
beyond the Middle East such as Somali Shabaab, as the U.N. has 
noted. The second consists of its direct attacks, carried out 
either by its own agents in the IRGC and the Quds Force or by 
its primary proxy, Hezbollah. In fact, as my collegues have 
stated, Hezbollah is central to both of these activities.
    My colleagues have also correctly stated the fact that this 
is not a new phenomenon. Iran's use of terrorism is embedded in 
its foreign policy; it is an extension of its foreign policy, 
going back to the very beginning of the revolution. The CIA 
noted in the 1980s that while Iran's support for terrorism was 
meant to further its national interests, it also stemmed from 
the clerical regime's perception that it has a religious duty 
to export the Islamic revolution and to wage, by whatever 
means, a constant struggle against the perceived oppressor 
states.
    Just a few years later in 1989, the CIA noted several 
factors that made Iran more likely to take increased risks in 
support of terrorism, factors that might have faded somewhat in 
the mid-1990s but are now coming back with a vengeance 
pertaining to internal politics. The first was the dominance of 
radical elements within the clerical leadership, which 
translated into significant Iranian hostility toward the West. 
Back then, as is true today, there was little chance more 
pragmatic leaders would come to the fore.
    Furthermore, igniting tensions abroad shifted popular 
attention away from domestic problems, while asymmetrical 
warfare provided Tehran with a potent weapon at a time when its 
military and economy were weak. Even its support for Hezbollah, 
which reportedly runs up to approximately $200 million a year 
at times, has faded by as much as 40 percent in periods over 
the past few years in large part because of our sanctions 
programs.
    Hezbollah is not only a key conduit of arms, training, and 
know-how to Iran's other proxies, especially the Palestinian 
groups. It is also the sharp end of the spear complementing the 
Quds Force, sometimes working closely together with the Quds 
Force, sometimes in somewhat of a competition with them to see 
who can strike first in terms of carrying out the types of 
attacks we have seen, amounting to at least nine in the past 
year or so.
    Consider Iran's Unit 1800, which is its dedicated unit to 
support the Palestinian groups; its Unit 3800, the dedicated 
unit with Ali Mussa Daqduq and others in Iraq to support the 
Iraqi Shia militants there. Consider Hezbollah and Iranian 
activities in Africa, Southeast Asia, North and South America, 
et cetera.
    I would like to give you just one example before I give you 
some ideas of some of the things we need to focus on, and that 
is the example of Fauzi Ayub. It is a great example of how 
someone can serve in both these two baskets.
    Fauzi Ayub was involved in an attempted hijacking in 
Romania years ago. Later Hezbollah sent him to Canada where he 
obtained Canadian citizenship. He got married and lived in 
Dearborn, MI, for a time. There is an American indictment out 
for him. Hezbollah then took advantage of his Canadian 
documentation to infiltrate him into Israel on the West Bank 
for the purpose of supporting Palestinian groups there and 
attempting to carry out a bombing attack there as well. In his 
trial in an Israeli court, the judge asked if he had ever 
informed the Canadians about his past history as a Hezbollah 
hijacker in Romania, to which he responded that he hadn't, and 
that the Canadians had neglected to ask. The fact is that these 
baskets are not distinct, and Hezbollah does not make them so. 
This is not the manner in which Iran uses its proxy.
    I do believe that in the event of a nuclear strike on Iran, 
we should expect to see a significant increase in the types of 
asymmetric international terrorist attacks that we have seen. I 
think what we are seeing now is child's play compared to what 
we would see then, both by Iranian agents and by Hezbollah. I 
do not believe for a moment that if there were an attack on 
Iran, that Hezbollah would not respond.
    I believe that the Arab Spring, as my colleagues said, has 
been a tremendous setback for Iran. It is very difficult for 
Iran to claim that the Arab Spring is a wonderful thing and 
support protestors when talking about Bahrain, only to then 
oppose similar protests in Syria, where Iran has helped the 
Assad regime crack down on its own people. The only entities 
that continue to support Syria today are Hezbollah and Iran.
    I think the connection between Iran's nuclear program and 
terrorism goes byond their use of terrorism were there to be a 
strike on the nuclear program. I equate a nuclear Iran to an 
Iran on steroids. Iran is already extremely aggressive. We in 
the West, in contrast, tend to be very risk-averse, especially 
when it comes to Iran. If this is how Iran behaves now, imagine 
how it would behave if it had a nuclear weapon.
    Thank you.
    [The prepared statement of Dr. Levitt follows:]

                  Prepared Statement of Matthew Levitt

    Chairman Casey, Ranking Member Risch, and distinguished members of 
the committee, I thank you for the opportunity to appear before you 
today to discuss Iran's support for terrorism in the Middle East. In 
fact, Tehran's support of terrorism includes both the sponsorship of 
Middle Eastern (and other) terrorist groups and acts of terrorism 
carried out by its own IRGC Quds Force.
                            iran on offense
    World attention on Iran centers on the threats to international 
security posed by the country's nuclear program. As Iran presses on in 
its efforts to become a nuclear power, the regime in Tehran also 
employs an aggressive foreign policy that relies heavily on the 
deployment of clandestine assets abroad to collect intelligence and 
support foreign operations. The world's most active state sponsor of 
terrorism, Tehran relies on terrorism to further Iranian foreign policy 
interests.
    Today, Iran feels itself under increasing pressure from the 
international community by both diplomatic and economic sanctions. From 
the Stuxnet virus to the assassination of Iranian scientists and the 
defection of Iranian agents, Iran feels increasingly targeted by 
Western intelligence services in general and Israel and the United 
States in particular. Hezbollah and Iran each have their own reasons 
for executing terrorist attacks targeting Israeli or other Western 
targets--Iran seeks to avenge attacks on its scientists and sanctions 
targeting its nuclear program, and Hezbollah seeks to avenge 
Mughniyeh's death. This convergence of interests strengthens their 
longstanding and intimate relationship, making their combined 
operational capabilities that much more dangerous.
    Over the past 7 months, a spate of terrorist plots targeting U.S. 
and Israeli foreign interests has illustrated Iran's propensity for 
sponsoring attacks abroad. Some were thwarted, including plots in 
Thailand, Bulgaria, Singapore, Kenya, Cyprus, and Azerbaijan. Others 
were not, including bombings in India and Georgia. Some of these 
operations were carried out by Iranian agents, others by Iran's primary 
proxy, Hezbollah. A few were joint operations executed by Hezbollah 
operatives working with Iranian intelligence or members of the Quds 
Force, an elite branch of Iran's Islamic Revolutionary Guard Corps 
(IRGC). Consider that a plot in Turkey involving four members of the 
Quds Force targeting diplomatic missions in Istanbul was reportedly 
foiled by Turkish security authorities this March. Some, like one of 
the plots in Azerbaijan, leveraged relationships with local criminal 
networks to execute an attack. The most brazen, and bizarre, was the 
October 2011 plot to assassinate the Saudi Ambassador to Washington. 
This Quds Force plot against the Saudi diplomat, Director General of 
MI5 Jonathan Evans told a crowd in June 2012, ``leads straight back to 
the Iranian leadership. . . . [A] return to State-sponsored terrorism 
by Iran or its associates, such as Hezbollah, cannot be ruled out as 
pressure on the Iranian leadership increases.'' Of the more recent 
attacks in India, Azerbaijan, and elsewhere, he noted, ``we also face 
uncertainty over developments in Iran. In parallel with rising concern 
about Iran's nuclear intentions, we have seen in recent months a series 
of attempted terrorist plots against Israeli interests.'' \1\
    Most recently, Israeli officials have linked Hezbollah and Tehran 
to the suicide bombing that left six Israelis and one Bulgarian dead in 
Burgas, Bulgaria, last week. Israeli Prime Minister, Benjamin 
Netanyahu, told reporters, ``We have unquestionable, fully 
substantiated intelligence that this was done by Hezbollah backed by 
Iran.'' He highlighted the similarities between the Bulgarian bombing 
and a plot foiled in Cyprus earlier this month in which Cypriot 
authorities arrested a Hezbollah operative conducting preoperational 
surveillance on Israeli flights and tour buses.\2\
    This should not surprise as Iranian agents have traditionally 
supported the efforts of trusted proxy groups in attacks spanning the 
globe, especially when Tehran was under serious international or 
domestic pressure. Consider that Iran's record of supporting terrorist 
attacks includes the 1983 and 1984 bombings targeting U.S. and French 
forces in Beirut, the 1992 and 1994 attacks against Israeli interests 
in Argentina, the 1996 bombing against U.S. forces in Saudi Arabia, and 
a host of other attacks targeting American, French, German, British, 
Kuwaiti, Bahraini, and other interests in plots from Europe to 
Southeast Asia to the Middle East.
                         tehran's fingerprints
    In the past, major acts of Iranian state sponsorship of terrorism 
have ultimately been linked back to the most senior elements of the 
Iranian leadership. When such cases have led to major law enforcement 
investigations and prosecutions, the links have been made public. 
Consider, for example, the June 1996 bombing of the Khobar Towers 
housing complex that was home to American, Saudi, French, and British 
servicemembers in Saudi Arabia's Eastern Province--the last time 
Iranian agents carried out an attack targeting both U.S. and Saudi 
interests. In that case, Iranian agents teamed up with Saudi and 
Lebanese Hezbollah operatives to carry out the attack. According to the 
testimony of a former CIA official, arrangements for the Khobar Towers 
attack began around 1994, including planning meetings likely held in 
Tehran and operational meetings held at the Iranian Embassy in 
Damascus, Syria. It was in 1994, according to this account, that the 
Supreme Leader of Iran, Ayatollah Ali Khamenei, gave the order for the 
attack on the Khobar Towers complex.\3\
    While planning the attack on Khobar Towers, Shia extremists 
continued to carry out other plots, including the hijacking of a Saudi 
Airbus flight, also in 1994.\4\ According to former FBI deputy director 
for counterterrorism, Dale Watson, evidence the FBI collected to 
determine Saudi Hezbollah carried out the attack at Iran's behest 
included not only forensics and the statements of detained conspirators 
but also ``a lot of other types of information that I'm not at liberty 
to discuss.'' \5\ According to Watson, whose tenure at the FBI spanned 
24 years and included a stint as chief of the Iran-Hezbollah unit at 
FBI headquarters, Hezbollah does not carry out terrorist attacks 
internationally on its own. ``It must be sanctioned, it must be 
ordered, and it must be approved and somebody has to fund it,'' Watson 
noted in explaining Iran's role in the Khobar attack.\6\ According to 
former CIA officer, Bruce Tefft, the Khobar Towers attack was planned 
and overseen by the IRGC and the Ministry of Intelligence and Security 
(MOIS), ``acting on the orders of the Supreme Leader of Iran.'' \7\
    Authorities came to similar conclusions in the case of the 
investigation into the 1994 bombing of the AMIA Jewish community center 
in Buenos Aires. Based on the testimony of Iranian intelligence 
defector, Abolghasem Mesbahi, among others, prosecutors would 
ultimately conclude that Iran's Supreme National Security Council held 
a meeting in Mashhad on Saturday, August 14, 1993, where senior Iranian 
leaders approved the bombing plot and selected the AMIA building as the 
target. The meeting, chaired by then-president, Akbar Hashemi 
Rafsanjani, began promptly at 4:30 p.m. and ran for 2 hours.\8\ 
According to the FBI, around the time of this August meeting, 
intelligence reports indicated Hezbollah was ``planning some sort of 
spectacular act against Western interests, probably Israeli but perhaps 
against the United States.'' \9\
                   terror as a tool of foreign policy
    In April 2008, Gen. David Petraeus testified before the Senate 
Armed Services Committee about the flow of sophisticated Iranian arms 
to Shia militants in Iraq. The military's understanding of Iran's 
support for such groups crystallized, Petraeus explained, with the 
capture of a number of prominent Shia militants and several members of 
the Quds Force operating in Iraq as well.\10\
    In case it was not already clear to General Petraeus that Quds 
Force chief, Gen. Qasem Soleimani, was calling the shots for Iran in 
Iraq, the head of the Quds Force reportedly sent the commander of 
coalition forces a message in early 2008 to make the point. Conveyed by 
a senior Iraqi leader, the message came just as Iraqi and coalition 
forces initiated Operation Charge of the Knights, a concerted effort to 
target Iraqi Shia militias in Baghdad and Basra. The text message read: 
``General Petraeus, you should know that I, Qassem Suleimani, control 
the policy for Iran with respect to Iraq, Lebanon, Gaza, and 
Afghanistan. And indeed, the ambassador in Baghdad is a Quds Force 
member. The individual who's going to replace him is a Quds Force 
member.'' \11\
    Perhaps the message should not have come as such a surprise, coming 
from a man known for being aggressive in the belief that ``offense is 
the best defense.'' \12\ The crux of the message, however, was no 
surprise at all. Several months earlier, in October 2007, Petraeus 
confirmed to the press that he had ``absolute assurance'' that several 
Iranians detained by coalition forces were Revolutionary Guardsmen. 
``The Quds Force controls the policy for Iraq; there should be no 
confusion about that either,'' he noted, adding that ``The ambassador 
is a Quds Force member.'' \13\
    One might assume Iran would behave more cautiously today, at a time 
when it has come under increasing international pressure over its 
rumored pursuit of nuclear weapons, its suppression of human rights at 
home, and its support of terrorism abroad. Indeed, the U.S. Government 
designated the Quds Force as a terrorist group in 2007 for providing 
material support to the Taliban, Iraqi Shia militants, and other 
terrorist organizations. Most counterterrorism experts, myself 
included, expected that future acts of Iranian terrorism would occur in 
places like Europe, where Iranian agents have long targeted dissidents, 
and not in the United States, where carrying out an attack would risk 
severe countermeasures, including the possibility of a U.S. military 
reprisal had the attack been successfully executed and linked back to 
Iran.
    Iran's use of terrorism as a tool of foreign policy, however, goes 
back as far as the 1979 Islamic Revolution. Writing in 1986, the CIA 
assessed in a now-declassified report titled ``Iranian Support for 
International Terrorism'' that while Iran's support for terrorism was 
meant to further its national interest, it also stemmed from the 
clerical regime's perception ``that it has a religious duty to export 
its Islamic revolution and to wage, by whatever means, a constant 
struggle against the perceived oppressor states.'' \14\
    A 1989 CIA report highlights several factors that made Iran more 
likely to take increased risks in support of terrorism--factors that 
faded somewhat after the mid-1990s but that are now coming back with a 
vengeance. The first was the dominance of radical elements within the 
clerical leadership, which translated into significant Iranian 
hostility toward the West. Then as now, there was little chance more 
pragmatic leaders would come to the fore. Furthermore, igniting 
tensions abroad could shift popular attention away from domestic 
problems, while asymmetrical warfare provided Tehran with a potent 
weapon at a time when its military and economy were weak.
    Underlying Iranian grievances with the West exacerbated these 
tensions in the late 1980s in much the same way that they have today. 
In the late 1980s, Iranian anger was fed by the accidental 1988 downing 
of an Iranian airliner by the USS Vincennes, as well as anger over the 
publication of Salman Rushdie's ``The Satanic Verses,'' deemed by Iran 
to be offensive to Islam. Now, the Iranian authorities' anger is fed by 
increasing U.S. and European sanctions plus Tehran's conviction that 
the West is pursuing a ``soft overthrow'' of the Islamic Republic by 
use of modern communications to whip up protests. Tehran thinks that 
the West caused the 2009 protests in Iran and is behind the protests 
shaking Syria now.
    According to CIA reporting in the late 1980s, ``Iranian leaders 
view terrorism as an important instrument of foreign policy that they 
use both to advance national goals and to export the regime's Islamic 
revolutionary ideals.'' The CIA noted that Iran had already ``supported 
and sometimes directed terrorist operations by Hezbollah,'' described 
as ``a thriving Shia fundamentalist movement in Lebanon.'' Iran had 
also ``smuggled explosives into Saudi Arabia and conducted terrorist 
operations against Kuwait targets.'' Iran, the CIA concluded, would 
``keep the United States as a primary terrorist target'' for itself and 
its surrogates for a variety of reasons, including the U.S. military 
presence in the Gulf, the recent reflagging of Kuwaiti oil tankers, the 
seizure of an Iranian ship laying mines in the Gulf, and an attack on 
an Iranian oil platform used to support Iranian military operations.
              sponsorship of middle east terrorist groups
    Tehran's capability to carry out global terror attacks rests on its 
ability to call upon a group of Middle East-based terror groups willing 
to act at Iran's behest, a network that would almost certainly be 
called upon to execute the kind of asymmetric terror attacks that can 
be carried out with reasonable deniability and therefore make a 
targeted response more difficult. Muhammad Hejazi, the deputy head of 
Iran's Armed Forces, hinted that Tehran could order proxy militant 
groups in Gaza and Lebanon to fire rockets into Israel. He even implied 
such a strike could be used preemptively, before an attack on Iran. 
``We are no longer willing to wait for enemy action to be launched 
against us,'' he told Iran's Fars News Agency. ``Our strategy now is 
that we will make use of all means to protect our national interests.'' 
\15\ Hezbollah leaders have also stated they would stand by Iran and 
any other entity that has stood up to the ``Zionist regime.'' \16\
    Iran has backed not only militant groups in its Persian Gulf 
neighborhood but also radicals and armed groups in Lebanon, the 
Palestinian territories, Iraq, Afghanistan, and elsewhere, by providing 
funds, weapons, training, and safe haven. Among the many groups that 
Tehran sponsors are the Popular Front for the Liberation of Palestine-
General Command (PFLP-GC), Palestinian Islamic Jihad (PIJ), Hamas, and 
Iraqi Shia militias. Other relationships are less well known. Consider, 
for example, Iran's ties to Somalia's al-Shabab.
    Last month, two Iranian nationals, Ahmad Mohammed and Sayed 
Mousavi, were arrested in Nairobi after one of the suspects led 
officials to 15 kilograms of chemicals hidden at a golf course in the 
port city of Mombasa.\17\ Kenyan authorities believe the men, suspected 
IRGC-Quds Force members, shipped more than 100 kilograms of powerful 
explosives into the country, most of which remains unrecovered.\18\ 
Last year, Kenya launched military operations into neighboring Somalia, 
targeting al-Shabab after a wave of kidnappings damaged Kenya's tourism 
industry. According to one senior antiterrorism officer, the two men 
``were planning to help al-Shabaab carry out revenge attacks in Kenya 
because of the Kenya Defence Forces' incursion inside Somalia.'' \19\
    Al-Shabab's connection to Iran goes back at least as far as 2006, 
when a report from the U.N. Monitoring Group on Somalia indicated that 
the Islamic Courts Union (ICU), the precursor to al-Shabab, sent 
fighters to Lebanon to aid Hezbollah against the Israelis in return for 
Iranian and Hezbollah funding, arms, and training. According to the 
report:

          During mid-July 2006 ICU sent an approximately 720-person-
        strong military force to Lebanon to fight alongside Hezbollah 
        against the Israeli military. . . . A number of the fighters 
        also remained in Lebanon for advanced military training by 
        Hezbollah. Furthermore, between 8 and 10 September 2006, about 
        25 Somalis returned to Somalia accompanied by five members of 
        Hezbollah. . . . In exchange for the contribution of the Somali 
        military force, Hezbollah arranged for additional support to be 
        given to ICU by the Governments of the Islamic Republic of Iran 
        and the Syrian Arab Republic, which was subsequently 
        provided.\20\
                     hezbollah: first among equals
    Of all the terrorist groups that Tehran has sponsored over the past 
28 years, none is more important to Iran than Hezbollah.\21\ Iran 
helped create Hezbollah in the early 1980s, funding, training, and 
indoctrinating new members of the fledgling movement. This support 
created a completely loyal proxy group ready to engage in terrorist 
activities at Iran's behest. As one senior Hezbollah official noted in 
the early 1980s, ``Our relation with the Islamic revolution is one of a 
junior to a senior . . . of a soldier to his commander.'' \22\
    Today, Hezbollah operatives maintain close ties to Iranian 
intelligence officials and IRGC members. The IRGC--deeply involved in 
the country's ballistic missile and nuclear and weapons proliferation 
activities--has been a major focus of both U.S. and U.N. sanctions. The 
group also maintains a special branch, the Quds Force, which provides 
funds, weapons, and training to terrorist groups. Iranian forces 
operate training camps in Lebanon for Hezbollah fighters and provide 
financial support to the group, according to the Congressional Research 
Service. Since the early 1990s, Hezbollah has operated with a 
guaranteed annual contribution of at least $100 million from Tehran. 
Early last decade, Iran doubled that investment to more than $200 
million a year, and its financial support for Hezbollah reached its 
pinnacle in 2008-2009, when Iran was flush with revenues from oil 
prices that had risen as high as $145 per barrel in late July 2008. By 
2009, Israeli intelligence estimated that, since the summer of 2006, 
Iran had provided Hezbollah more than $1 billion in direct aid. In 
exchange, Iran has been able to leverage Hezbollah cells and operatives 
stationed around the world to conduct terrorist attacks well beyond its 
borders.
    Consider a few telling examples.
     unit 1800: hezbollah support for palestinian terrorist groups
    In the early to mid-1990s, with the Oslo peace accords signed and 
Palestinian autonomy slowly growing in the West Bank and Gaza Strip, 
opponents of peace funded, supported, and executed terrorist attacks to 
undermine the prospects for peace. Iran was especially active in 
promoting terrorism targeting Israel at this time. According to the 
Canadian Secret Intelligence Service, ``in February 1999, it was 
reported that Palestinian police had discovered documents that attest 
to the transfer of $35 million to Hamas from Iran's Ministry of 
Intelligence and Security (MOIS), money reportedly meant to finance 
terrorist activities against Israeli targets.'' \23\ Iran's primary 
proxy group, however, has always been Hezbollah. It should therefore 
not be surprising that Hezbollah increased its support for Palestinian 
groups in the 1990s, invested in its own terrorist infrastructure in 
the West Bank, and went to great lengths to infiltrate operatives into 
Israel to collect intelligence and execute terror attacks.
    For its part, Iran sought to intensify and coordinate the terrorist 
operations of the various Palestinian groups it supported and its 
primary proxy, Hezbollah. A Palestinian intelligence report describes a 
May 19, 2000, meeting at the Iranian Embassy in Damascus between the 
Iranian Ambassador to Syria and representatives from Hamas, Palestinian 
Islamic Jihad, and Hezbollah. According to the report, ``during the 
meeting the Iranian Ambassador demanded that the above-mentioned 
persons carry out military operations in Palestine without taking 
responsibility for these operations.'' \24\ According to another 
Palestinian intelligence document, dated October 31, 2001, officials 
from Hamas, PIJ, and Hezbollah met in Damascus ``in an attempt to 
increase the joint activity inside [i.e., in Israel, the West Bank, and 
Gaza] with financial aid from Iran.'' The meeting was held ``after an 
Iranian message had been transferred to the Hamas and Islamic Jihad 
leaderships, according to which they must not allow a calming down [of 
the situation on the ground] at this period.'' The Iranian funds, the 
report added, were to be transferred to these groups through 
Hezbollah.\25\
    Indeed, from Iran's perspective, only Hezbollah's direct 
involvement would guarantee a truly successful terror campaign 
targeting Israel. According to U.S. officials, shortly after 
Palestinian violence erupted in September 2000, Iran assigned Imad 
Mughniyeh, Hezbollah's international operations commander, to bolster 
the operational capacity of Palestinian militant groups, specifically 
Hamas and PIJ. In fact, to carry out the March 27, 2002, ``Passover 
massacre'' suicide bombing, Hamas reportedly relied on the guidance of 
a Hezbollah expert to build an extra-potent bomb.\26\ Following the 
death of Palestinian leader, Yasser Arafat, in November 2004, Hezbollah 
was said to have received an additional $22 million from Iranian 
intelligence to support Palestinian terrorist groups and foment 
instability.\27\
    Carrying out attacks along the border with Lebanon in Israel's far 
north was one thing, but to effectively undermine the peace process 
Hezbollah leaders decided they needed to target key Israeli 
decisionmakers, symbolic sites, or ordinary Israeli civilians in 
downtown shopping districts. With the onset of the second Palestinian 
intifada in September 2000, Mughniyeh complemented infiltration 
operations into Israel with others aimed at kidnapping Israelis abroad 
and recruiting Palestinians and Israeli Arabs to carry out attacks at 
Hezbollah's behest. In particular, Mughniyeh used the increased funding 
he received from Iran to form Unit 1800, which was dedicated solely to 
supporting Palestinian groups and terror attacks targeting the Israeli 
heartland.
    The case of one Unit 1800 recruit, Fawzi Mohammed Mustafa Ayub, who 
was trained in Hezbollah camps and primed to infiltrate Israel stands 
out for two reasons. First, he is one of the few Hezbollah infiltrators 
to successfully evade Israeli security and make his way into Israel 
undetected. Second, he was able to operate on the ground in Israel and 
the West Bank for about a year and a half before being detained.
    In the mid-1980s, Ayub was convicted by a Romanian court for his 
role in a Hezbollah plot to hijack an Iraqi airliner set to depart from 
Bucharest. Following his release from a Romanian prison in 1988, Ayub 
immigrated to Canada, sponsored by an uncle under a program reserved 
for refugees displaced by the Lebanese civil war. He became a Canadian 
citizen in 1992. Asked by an Israeli judge if he had told Canadian 
authorities about his conviction in Romania on charges of attempting to 
carry out an act of terrorism, Ayub replied, ``They never asked.'' \28\
    Ayub seemed to be leading a normal life in the Toronto area. He 
married a woman from the United States and at some point the couple 
lived near Dearborn, MI, according to U.S. prosecutors.\29\ He studied 
in the evenings and worked at a grocery store during the day. But all 
the while, Ayub remained an active Hezbollah agent, according to 
Israeli officials. While in Canada, Israeli officials noted, Ayub 
``maintained contact with senior Hezbollah officials and carried out 
operations.'' \30\
    In 2000, Ayub returned to Lebanon armed with his Canadian passport 
and he trained to carry out sensitive missions abroad. He was an ideal 
candidate for Hezbollah's Unit 1800. Under Mughniyeh's personal 
supervision, Ayub trained in the handling and preparation of explosives 
at secret Hezbollah facilities in Beirut apartments. He was also taught 
how to hide any trace of his Lebanese identity and given strict 
guidelines on how to behave once in Israel, including suppressing his 
Arab identity and speaking only English at all times. The purpose of 
his mission, according to the FBI, was to conduct a bombing on behalf 
of Hezbollah.\31\
    After several months of training, Ayub traveled to an unknown 
European country on his Canadian passport. There he ditched his 
Canadian passport, acquired a high-quality American passport, traveled 
to Greece, and boarded a boat to Israel. After a few days in Jerusalem, 
Ayub traveled to Hebron in the southern West Bank, where he contacted a 
local terrorist operative. Together, the two scouted possible sites for 
the prepositioning and concealment of weapons for future 
operations.\32\ According to Israeli intelligence, Ayub did, in fact, 
prepare and hide explosives in caches in Israel for later use.\33\
    Ayub's mission was interrupted, however, by his arrest in Israel. 
In custody, Ayub reportedly admitted that part of his mission was to 
free three key Hezbollah operatives--Mustafa Dirani, Abdel Karim Obeid, 
and Jihad Shuman--perhaps by kidnapping Israelis and bargaining for 
their release in exchange for the detained Hezbollah operatives.\34\ He 
was eventually released as part of a prisoner exchange. He flew to 
Beirut, where Hezbollah secretary-general Hassan Nasrallah waited on 
the tarmac to greet and embrace him.\35\
    More recently, members of Hezbollah's Unit 1800 were caught in 
Egypt, where they were funneling weapons to Hamas in the Gaza Strip. At 
the time, Egyptian authorities maintained the group was also targeting 
Egyptian targets. Hezbollah denied those accusations, but proudly took 
credit for efforts to arm Hamas. Hezbollah leader, Hassan Nasrallah, 
confirmed the charges himself days after they were aired. In a 
televised address, Nasrallah insisted Hezbollah was not plotting 
attacks on Egyptian soil but acknowledged Mansour Shihab, one of the 
men arrested, was a Hezbollah member who was in Egypt for ``a 
logistical job to help the Palestinians get (military) equipment.'' 
\36\
           africa: recruiting grounds for iran and hezbollah
    In Africa, where Hezbollah's support networks are well entrenched, 
the group need not rely on Iranian operational support as much as it 
does elsewhere. That said, the sponsor and its proxy do cooperate 
closely on two key agenda items in Africa: proselytizing and 
recruitment, and arms smuggling. Committed to its constitutional 
directive to export the Islamic Revolution, the Revolutionary Guard 
proactively recruits Shia in Africa by working off of the efforts of 
Iranian and Lebanese missionaries proselytizing across the continent. 
As early as 1985, the CIA was aware that Iran had long been known to 
``promote subversive activity'' in far-flung countries with Shia 
populations, including Nigeria.\37\ Three years later, a CIA report 
acknowledged the phenomenon was far more widespread than just in 
Nigeria. Moreover, the agency highlighted Hezbollah's participation in 
efforts to spread Iran's Islamic revolutionary vision in Africa.
    Often, Iran recruits directly from the pool of Lebanese Shia 
communities across Africa. The Africa Division of the Revolutionary 
Guard's Quds Force has ``built many cells in Africa,'' according to a 
2011 research report, ``most of which rely on Shiite emigrants from 
Lebanon who live in Africa.'' Once spotted and recruited, they are sent 
to Iran for training. According to a retired Israeli military officer, 
``Lebanese recruited for the Iranian intelligence efforts were invited 
to visit Iran, where they underwent training in the field of 
intelligence. Upon their return, they serve as a nucleus for recruiting 
others and provide a base for Iranian intelligence activity in their 
countries.'' \38\
    Such efforts are not limited to Lebanese Shia. Indeed, according to 
a study commissioned by the U.S. military, Iran uses scholarships for 
African students as ``a major recruitment tool.'' Iranian scholarships 
are offered to students across Africa as part of Tehran's ``greater 
diplomatic effort to simultaneously promote the broader Hezbollah 
agenda in Africa and undermine Western influence and credibility across 
the continent.'' Wherever Iran has embassies in Africa,'' the report 
added, ``it also sets up cultural centers that `award' scholarships and 
`study tours' to Iran.'' \39\ One such effort, focused on the 
recruitment of Ugandan Shia for religious study--and military and 
intelligence training--in Iran was exposed in 2002.
    According to an Israeli intelligence report, ``In recent years, 
many foreign students, including [students] from Uganda and other 
African countries, are sent to study theology in Iranian universities'' 
as a means of recruiting and training them as Hezbollah operatives or 
Iranian intelligence agents. In late 2002, Ugandan officials arrested 
several young Shia men, including Shafi Ibrahim, who were recruited by 
Iran and trained alongside young Hezbollah members at facilities in 
Tehran. Ibrahim's partner, Sharif Wadoulo, another Ugandan Shia, 
escaped arrest and fled to an unnamed Gulf country. Under questioning, 
Ibrahim acknowledged that he and Wadoulo ``were chosen because they 
were ideologically and physically competent to be trained in 
intelligence and sabotage.'' \40\
    The first group of Ugandan recruits, whose leaders included Ibrahim 
and Wadoulo, traveled to Iran in 1996, but many more from Uganda and 
elsewhere in Africa followed. The young men, a small group selected for 
that first running of this particular Iranian recruitment program, were 
ostensibly sent to Iran to study theology, but once in Iran, they were 
told explicitly that the primary purpose of their stay was ``to set up 
a terrorist infrastructure in the countries they were sent to.'' Their 
studies, accommodation and living expenses, and a stipend were financed 
entirely by Iran. Meanwhile, the report added, their families also 
benefited from unspecified ``Iranian hospitality.'' \41\
    Ibrahim, Wadoulo, and the rest of the group studied at the Razavi 
University of Islamic Sciences in Mashhad, in northwest Iran near the 
Afghan border. As many as 20 million pilgrims reportedly visit the city 
annually, making Mashhad a logical destination for foreign Shia 
students recruited abroad by Iran's Revolutionary Guard to study Shia 
theology and the promise of Iran's Islamic Revolution.\42\
    In early 2001, the group was secretly relocated to Tehran for 
studies of a different nature. The Ugandan recruits, along with young 
Lebanese Hezbollah members, underwent a 1-month basic training course 
``specially tailored by Iranian intelligence.'' Different from the 
basic training course for a military recruit, this training combined 
ideological and operational components. The course was designed ``to 
intensify the recruit's sympathy for Iran and the Islamic Revolution, 
while motivating them to hit at what the Iranians consider the enemies 
of Islam.'' Together, the mixed group of Ugandan Shia and Lebanese 
Hezbollah recruits were taught to use a variety of small arms, produce 
improvised explosive devices, collect preoperational intelligence ``on 
installations and people for terrorist attacks,'' plan escape routes, 
and withstand interrogation techniques. The students were given 
fictitious covers, money, and means of communication and then 
``instructed to collect intelligence on Americans and Westerners 
present in Uganda and other countries.'' The group's Iranian handlers 
saw these new recruits as force multipliers, telling both Ibrahim and 
Wadoulo to be attuned to the need to expand Iran's network in the 
region and ``to recruit other Ugandan civilians for similar 
assignments.'' \43\
    According to the Israeli report, once the recruits returned home in 
September 2001, they were assigned a local IRGC handler on the ground 
in Uganda, who reportedly was there to ``sustain their motivation, to 
convey operational instructions and to obtain reports on their 
activities.'' The cell was busted before it could carry out any 
operations, and the exposure of this Iranian network led to increased 
scrutiny of Iranian institutions in Uganda--including the Iranian 
Embassy--that had for years provided local Shia education to young 
children and sent older students to study in Iran. There, the report 
added, ``they are recruited by Iranian intelligence for intelligence 
activity and terrorism.'' \44\
  irgc ramazan corp and hezbollah's unit 3800--support to iraqi shia 
                                militias
    Iraqi Shia extremists feature prominently in Iran's arsenal of 
regional proxies. On their own, and in cooperation with the Quds Force, 
local Hezbollah affiliates and groups like the Iraqi Dawa Party have 
engaged in terrorism and political violence in support of their own and 
Iranian interests. In time, evidence of Hezbollah's presence in Iraq 
would be plentiful. Indeed, Hezbollah would create an outfit, Unit 
3800, dedicated to aiding the Shia insurgency in Iraq. Iraq became a 
core issue for Hezbollah, however, not because it had anything to do 
with Lebanon but because gaining influence over Iraq and hegemony in 
the region is of primary concern to its Iranian sponsors.
    Operation Iraqi Freedom removed Iran's greatest enemy and longtime 
nemesis. The 2003 invasion therefore provided Iran with an opportunity 
to reshape its influence within Iraq and, in the process, increase its 
influence in the region. Working through its proxies, Iran set out to 
achieve several goals in Iraq, the most important and overarching of 
which was to see the creation, in the words of then-Defense 
Intelligence Agency (DIA) director Lowell Jacoby, of a ``weakened, 
decentralized and Shia-dominated Iraq that is incapable of posing a 
threat to Iran.'' \45\
    Of course, Iran has long sought to push the United States out of 
the Gulf region. ``Iranian- sponsored terrorism is the greatest threat 
to U.S. personnel and facilities in the Middle East.'' So read the 
opening statement of a CIA memo written in mid-February 1985 on 
terrorism in the Middle East. It continued: ``Islamic radicals in Iran 
view Washington's presence and influence in the Middle East as major 
impediments to successful export of their revolution and regard 
terrorism as a legitimate and effective method of attacking the U.S. 
Iranian-sponsored terrorism will continue and possibly increase so long 
as the clerics in Tehran do not perceive any significant costs in 
launching such operations.'' \46\
    That desire now extended not only to the U.S. presence in the Gulf 
in general terms but also to the large U.S. and international military 
presence in Afghanistan to Iran's east and in Iraq to its west. In the 
period after the 2003 invasion, Tehran sought to bloody coalition 
forces in Iraq. Careful not to provoke a direct confrontation with U.S. 
and coalition forces, Iran proactively armed, trained, and funded a 
variety of Shia militias and insurgent groups in an effort to bog down 
coalition forces in an asymmetric war of attrition. If the United 
States were humiliated in Iraq and forced out of the region in 
disgrace, it would be deterred from pursuing similar military 
interventions in the region in the future, or so the thinking went.
    In 2009, then-director of National Intelligence Dennis Blair noted 
that ``Iranian efforts to secure influence in Iraq encompass a wide 
range of activities,'' from propaganda and humanitarian assistance to 
providing ``lethal support'' to Shia militants.\47\ The breadth and 
lethality of Iranian arms smuggled to Iraqi Shia militias were exposed 
in a press briefing in February 2007 in Baghdad's Green Zone. Laid out 
on the table were mortar shells, rocket-propelled grenades, EFP 
launchers and their shaped metal charges, and the false identification 
cards found on two of the Quds Force officials captured in a raid a 
month earlier. According to U.S. officials, serial numbers on some of 
the grenades indicated they were manufactured in Iran in 2006.\48\ ``We 
have been able to determine that this material, especially on the EFP 
level, is coming from the IRGC-Qods Force,'' the intelligence briefer 
stated.\49\ A month earlier, U.S. troops had raided an Iranian 
diplomatic office and arrested six more Iranians in northern Iraq. One 
individual was quickly released, but the other five were determined to 
be IRGC members, not diplomats.
    The capture of senior Quds Force officials, and the public airing 
of evidence demonstrating Iranian agents were arming and training Iraqi 
Shia extremists, embarrassed Tehran and appears to have accelerated 
Iran's efforts--already under way--to put an Arab face on this mission. 
To that end, Hezbollah sent a master trainer--Ali Musa Daqduq--to Iran 
to coordinate the training program and make periodic visits to Iraq. In 
2005, Daqduq was told he would be going to Iran to work with the Quds 
Force to train Iraqi extremists. Though it would only become clear over 
time, the answer to the question U.S. intelligence analysts kept asking 
themselves--Why would Iran need to deploy Hezbollah operatives in 
Iraq?--was fairly simple: Iraqi Shia resented and distrusted their 
Iranian sponsors and trainers.
    So it was that Hezbollah, at Iran's behest, helped develop a 
sophisticated training program for Shia militants from Iraq. Some 
training occurred in Iraq, reportedly at the Deir and Kutaiban camps 
east of Basra near the Iranian border. In Iran, Hezbollah and Quds 
Force instructors ran a well-organized training program in which Daqduq 
was directly involved, ``help[ing] Quds Force in training Iraqis inside 
Iran.'' \50\ Over time, Hezbollah operatives trained enough Iraqi Shia 
militants--in Iraq, Iran, and Lebanon--to significantly improve the 
Special Groups' paramilitary capabilities. Hezbollah provided the Iraqi 
insurgents ``with the training, tactics and technology to conduct 
kidnappings, small unit tactical operations, and employ sophisticated 
improvised explosive devices, incorporating lessons learned from 
operations in Southern Lebanon,'' according to an April 2010 Pentagon 
report.\51\ Indeed, it would not take long before Hezbollah operatives 
would begin directing Iraqi militants in the execution of exactly such 
operations, including the January 20, 2007, attack on the Provisional 
Joint Coordination Center in Karbala in which four U.S. soldiers were 
killed.\52\
                           what can be done?
    Pointing to the 1983 and 1984 Beirut bombings, the CIA reported in 
1987 that ``many Iranian leaders use this precedent as proof that 
terrorism can break U.S. resolve'' and view ``sabotage and terrorism as 
an important option in its confrontation with the United States in the 
Persian Gulf.'' \53\ Five years later, the CIA assessed that ``for now, 
Iran will sponsor easily deniable attacks on U.S. targets and allow 
Hezbollah to retaliate for [Hezbollah leader Abbas] Musawi's 
assassination.'' \54\ These assessments from the 1980s and 1990s still 
hold true today. Hezbollah has sought to exact revenge for the February 
2008 assassination of the group's master terrorist, Imad Mughniyeh. But 
this year's string of terrorist plots, some executed by Iranian agents, 
some by Hezbollah operatives, is primarily driven by Iran's desire to 
avenge attacks on its scientists and efforts to thwart its nuclear 
program.
1. Deny Iran and Hezbollah Any Reasonable Deniability
    Operating in the shadows, through proxies and trusted operatives, 
is Iran's trademark modus operandi. Iran cannot win a conventional war 
against the West, but it can exact a high price through asymmetric 
warfare. Key to that doctrine, however, is the need to maintain 
``reasonable deniability'' for its acts of state sponsorship of 
terrorism. Exposing Iran's involvement in international terrorism is 
now more important than ever, both to deny the group its coveted 
``reasonable deniability'' and to build an international consensus for 
action against Iran's support for terrorism.
2. Raise the Cost for Iranian State Sponsorship
    One reason Iran is using terrorism as an extension of its foreign 
policy is that it remains a cost effective and relatively risk-free 
endeavor for Tehran. Iran must be led to believe that the cost of 
sponsoring or carrying out an act of terrorism will now be high. That 
will be a difficult message to convey in light of Iran's history of 
carrying out massive attacks without any significant reaction from 
America, even in the case of attacks against U.S. interests (Beirut, 
Khobar Towers, Iraq).
3. Apply Diplomatic Pressure
    In light of Iran's longstanding use of diplomatic equities to 
support international terrorism, Washington should press its allies to 
restrict the size of Iranian missions to the minimum needed to conduct 
official business, to restrict visits by Iranian officials to official 
business only (no meetings with sympathizers, no speeches, etc.), and 
to exercise diligence about the possibility that nondiplomatic Iranian 
travelers connected to the Iranian Government may be engaged in illegal 
activities. Iranian diplomats should only be allowed to travel outside 
the city to which they are assigned on official business.
    Consider that Iran's intelligence penetration of South America has 
expanded significantly since the AMIA bombing. Testifying before 
Congress in the weeks following that 1994 attack, the State 
Department's coordinator for counterterrorism expressed concern that 
Iranian embassies in the region were stacked with larger than necessary 
numbers of diplomats, some of whom were believed to be intelligence 
agents and terrorist operatives: ``We are sharing information in our 
possession with other States about Iranian diplomats, Iranian terrorist 
leaders who are posing as diplomats, so that nations will refuse to 
give them accreditation, or if they are already accredited, to expel 
them. We have had some success in that respect, but we have not always 
succeeded.'' \55\
    Another witness recounted meeting with senior government officials 
in Chile, Uruguay, and Argentina regarding overrepresentation at 
Iranian embassies in the region in March 1995--8 months after the AMIA 
bombing. Officials in Chile and Uruguay, the countries of most concern 
regarding Iranian overrepresentation at the time, indicated that ``the 
activities of those at the [Iranian] Embassy were being monitored and 
that this was very clearly a concern.'' \56\ Five years later, the 
commander of U.S. Southern Command, which has responsibility for the 
U.S. military over the southern half of the Western Hemisphere, 
indicated the Iranian presence in the region had grown still larger by 
expanding the number of embassies from just a handful a few years 
earlier to 12 missions by 2010. That, plus Iran's traditional support 
for terrorism, had Gen. Douglas Fraser concerned. ``Transnational 
terrorists--Hezbollah, Hamas--have organizations resident in the 
region,'' Fraser noted.\57\ According to press reports, the Quds Force 
plot may have also included plans to target Saudi or possibly Israeli 
diplomats in Argentina.\58\

----------------
End Notes

    \1\ Jonathan Evans, Director General of the Security Service, U.K. 
(speech, Lord Mayor's Annual Defence and Security Lecture, London, June 
25, 2012).
    \2\ ``Netanyahu: Intelligence Points to Hezbollah in Bulgarian 
Bombing,'' Los Angeles Times, July 22, 2012.
    \3\ Testimony of Bruce D. Tefft, Paul A. Blais v. Islamic Republic 
of Iran et al., Civil Action No. 02-285, United States District Court 
for the District of Columbia, May 26, 2006.
    \4\ Memorandum for the Secretary of Defense, Report of the 
Assessment of the Khobar Towers Bombing, Downing Assessment Task Force, 
August 30, 1996, www.fas.org/irp/threat/downing/report.pdf.
    \5\ Testimony of Dale Watson, Heiser et al. v. Islamic Republic of 
Iran, Civil Action Nos. 00-2329, 01-2104, United States District Court 
for the District of Columbia, December 18, 2003.
    \6\ Testimony of Dale Watson, Heiser et al. v. Islamic Republic of 
Iran, Civil Action Nos. 00-2329, 01-2104, United States District Court 
for the District of Columbia, December 18, 2003.
    \7\ Testimony of Bruce Tefft, Blais et al. v. Islamic Republic of 
Iran, Civil Case No. 2003-285, United States District Court for the 
District of Columbia, May 26, 2003.
    \8\ Report by the Investigations Unit of the Office of the Attorney 
General, ``AMIA Case,'' signed by District Attorney Marcelo Martinez 
Burgos, Attorney General Alberto Nisman, and Secretary of the Office of 
the Attorney General Hernan Longo, October 25, 2006, p. 92; Larry 
Rohter, ``Defector Ties Iran to 1994 Bombing of Argentine Jewish 
Center,'' New York Times, November 7, 2003.
    \9\ ``International Radical Fundamentalism: An Analytical Overview 
of Groups and Trends,'' Terrorist Research and Analytical Center, 
Federal Bureau of Investigation, Department of Justice, November 1994, 
declassified on November 20, 2008, http://www.investigativeproject.org/
documents/misc/469.pdf.
    \10\ Gen. David H. Petraeus, U.S. Army, Commanding General, 
Multinational Force Iraq, ``The Situation in Iraq and Progress by the 
Government of Iraq in Meeting Benchmarks and Achieving 
Reconciliation,'' testimony before the Senate Armed Services Committee, 
April 8, 2008.
    \11\ ``Interview and Moderated Q&A with General David Petraeus,'' 
Institute for the Study of War, Washington, DC, January 22, 2010, p. 
40-41, http://www.understandingwar.org/sites/default/files/
P4%20TRANSCRIPT.pdf.
    \12\ Ali Alfoneh, ``Iran's Most Dangerous General,'' Middle Eastern 
Outlook no. 4, American Enterprise Institute, July 13, 2011, http://
www.aei.org/article/foreign-and-defense-policy/regional/middle-east-
and-north-africa/irans-most-dangerous-general/.
    \13\ Paul von Zielbauer, ``U.S. Calls Iranian Official Part of 
Elite Force,'' New York Times, October 8, 2007, http://www.nytimes.com/
2007/10/08/world/middleeast/08iraq.html.
    \14\ ``Iranian Support for International Terrorism,'' Directorate 
of Intelligence, Central Intelligence Agency, November 22, 1986, 
approved for release June 1999, http://www.foia.cia.gov/.
    \15\ Adrian Blomfield, ``Iran Threatens to Use `All Means' in Pre-
emptive Strike on Israel,'' Independent, February 22, 2012.
    \16\ ``U.S. Bloc behind Syria Unrest: Deputy Hizballah Chief,'' 
Tehran Times, November 29, 2011.
    \17\ Reuters, ``Trial Date for Iranian Suspects in Kenya Set for 
July 23,'' Euronews, July 16, 2012, http://www.euronews.com/newswires/
1587094-trial-date-for-iranian-suspects-in-kenya-set-for-july-23/.
    \18\ Associated Press, ``Kenya Police: Iranians Shipped 100kg of 
Explosive,'' FoxNews.com, July 10, 2012, http://www.foxnews.com/world/
2012/07/10/kenya-police-iranians-shipped-100kg-explosives/.
    \19\ Zoe Flood, ``Kenyan Police Arrest Iranians Suspected of Terror 
Plot,'' Telegraph, June 22, 2012, http://www.telegraph.co.uk/news/
worldnews/africaandindianocean/kenya/9350172/Kenyan-police-arrest-
Iranians-suspected-of-terror-plot.html.
    \20\ ``Letter dated 21 November 2006 from the Chairman of the 
Security Council Committee established pursuant to Resolution 751 
(1992) concerning Somalia addressed to the President of the Security 
Council,'' S/2006/913, United Nations Security Council, November 22, 
2006, http://www.fas.org/asmp/resources/govern/109th/S2006913.pdf.
    \21\ The United States first listed Iran as a terrorist sponsor in 
1984.
    \22\ As quoted by Martin Kramer, ``The Moral Logic of Hizballah,'' 
in Walter Reich, ed., Origins of Terrorism: Psychologies, Ideologies, 
Theologies, States of Mind (Cambridge: Cambridge University Press), p. 
138.
    \23\ ``Terrorist Group Profiler,'' Canadian Secret Intelligence 
Service (CSIS), June 2002, author's personal files; see also Stewart 
Bell, ``Hamas May Have Chemical Weapons: CSIS Report Says Terror Group 
May Be Experimenting,'' National Post (Canada), December 10, 2003.
    \24\ ``Iran as a State Sponsoring and Operating Terror,'' Special 
Information Bulletin, Intelligence and Terrorism Information Center at 
the Center for Special Studies, Israel, April 2003, http://
www.intelligence.org.il/eng/iran.htm.
    \25\ ``Iran and Syria as Strategic Support for Palestinian 
Terrorism'' (report based on the interrogations of arrested Palestinian 
terrorists and captured Palestinian Authority documents), Israel 
Defense Forces, Military Intelligence, September 2002, http://
www.intelligence.org.il/eng.
    \26\ Molly Moore and John Ward Anderson, ``Suicide Bombers Change 
Mideast's Military Balance,'' Washington Post, August 17, 2002.
    \27\ ``Iran Expands Its Palestinian Control; Offers al-Khadoumi 
Five Million Dollars,'' al-Watan (Kuwait), December 13, 2004.
    \28\ Stewart Bell, Cold Terror: How Canada Nurtures and Exports 
Terrorism to the World (Wiley, 2004), p. 81.
    \29\ USA v. Faouzi Ayoub, Indictment, Case 2:09-cr-20367, filed 
under seal August 5, 2009, unsealed July 2011; see also Robert Snell, 
``Dearborn Man Accused of Bomb Mission on FBI's Most Wanted List,'' 
Detroit News, July 6, 2011.
    \30\ ``Intensive Intelligence Operation by the ISA Arrested in June 
2002 Senior Hizballah Militant,'' press release communicated by the 
prime minister's advisor, October 30, 2002,http://www.pmo.gov.il/
PMOEng/Archive/Press+Releases/2002/10/Spokesman6728.htm.
    \31\ USA v. Faouzi Ayoub, Indictment, Case 2:09-cr-20367, filed 
under seal August 5, 2009, unsealed July 2011; see also FBI Most Wanted 
Terrorists: Faouzi Mohamad Ayoub, http://www.fbi.gov/wanted/
wanted_terrorists/faouzi-mohamad-ayoub.
    \32\ ``ISA Arrests Senior Hizballah Terrorist,'' communicated by 
prime minister's advisor, October 30, 2002, accessed at 
www.imra.org.il; see also ``Iranian Activities in Support of the 
Palestinian Intifada,'' communicated by Israeli security sources, 
Israel Ministry of Foreign Affairs, January 30, 2003,http://
www.mfa.gov.il/mfa/go.asp?MFAH0n6j0.
    \33\ ``Hizballah's International Terrorism and the Penetration of 
Hizballah Activists into Israel,'' undated Israeli intelligence report 
received by the author, August 5, 2003.
    \34\ Adrain Humphryes, ``Canadian Seen as Planner of Hebron 
Attack,'' National Post (Canada), November 18, 2002.
    \35\ Stewart Bell, Cold Terror: How Canada Nurtures and Exports 
Terrorism to the World (Wiley, 2004), p. 116.
    \36\ ``Hezbollah Confirms Egypt Arrest,'' BBC News, April 10, 2009, 
http://news.bbc.co.uk/2/hi/7994304.stm.
    \37\ ``Overview of State-Supported Terrorism in 1985,'' Terrorism 
Review, Directorate of Intelligence, Central Intelligence Agency, 
January 13, 1986, approved for release June 1999, http://
www.foia.cia.gov/docs/DOC_0000258586/DOC_0000258586.pdf.
    \38\ Jacque Neriah, ``Iran Steps Up Arming Hizbullah against 
Israel,'' Jerusalem Issue Briefs 10, no. 21, Jerusalem Center for 
Public Affairs, January 10, 2011,http://www.jcpa.org/JCPA/Templates/
ShowPage.asp?DRIT=1&DBID=1&LNGID=1&TMID=111&FID=442&PID= 
0&IID=5660&TTL=Iran_Steps_Up_Arming_Hizbullah_Against_Israel.
    \39\ ``Directed Study of Lebanese Hezbollah'' (Nashville: Universal 
Strategy Group: Research and Analysis Division, 2011), p. 41.
    \40\ ``Iranian Intelligence Activity in Uganda,'' undated Israeli 
intelligence report, corroborated in separate author interview with 
Israeli intelligence official, Tel Aviv, July 2003.
    \41\ Ibid.
    \42\ See entry for ``Mashhad'' at the Places of Peace and Power 
Website, http://sacredsites.com/middle_east/iran/mashhad.html.
    \43\ ``Iranian Intelligence Activity in Uganda,'' undated Israeli 
intelligence report, corroborated in separate author interview with 
Israeli intelligence official, Tel Aviv, July 2003.
    \44\ Ibid.
    \45\ Vice Adm. Lowell E. Jacoby, USN, Director, Defense 
Intelligence Agency, ``Current and Projected National Security Threats 
to the United States,'' testimony before the Senate Select Committee on 
Intelligence, February 16, 2005, http://intelligence.senate.gov/
threats.pdf.
    \46\ ``Middle East Terrorism: The Threat and Possible U.S. 
Responses,'' Directorate of Intelligence, Central Intelligence Agency, 
February 15, 1985, approved for release June 1999, http://
www.foia.cia.gov/docs/DOC_0000256571/DOC_0000256571.pdf.
    \47\ Dennis C. Blair, Director of National Intelligence, ``Annual 
Threat Assessment of the Intelligence Community for the Senate Select 
Committee on Intelligence,'' February 12, 2009,http://www.dni.gov/
testimonies/20090212_testimony.pdf.
    \48\ James Glanz, ``U.S. Says Arms Link Iranians to Iraqi 
Shiites,'' New York Times, February 12, 2007, http://www.nytimes.com/
2007/02/12/world/middleeast/12weapons.html?pagewanted=all.
    \49\ Tim Susman and Borzou Daragahi, ``The Conflict in Iraq: 
Accusations of Interference; U.S. Makes Case that Iran Arms Flow into 
Iraq,'' Los Angeles Times, February 12, 2007, http://
articles.latimes.com/2007/feb/12/world/fg-iraqiran12.
    \50\ Press briefing with Brig. Gen. Kevin Bergner, spokesman, 
Multi-National Force-Iraq, Baghdad, July 2, 2007, http://www.usf-
iraq.com/?option=com_content&task=view&id=12641& Itemid=131.
    \51\ ``Unclassified Report on Military Power of Iran,'' 
Congressionally Directed Action (CDA) re: Military Power of Iran, April 
2010, p. 3, http://www.offnews.info/downloads/militaryPower Iran.pdf.
    \52\ ``Update to Initial Findings from Karbala; Militant Attack 
Used Deception, U.S. Army Type Uniforms,'' Multi-National Corps--Iraq 
Public Affairs Office, Release No. 20070126-21a, January 26, 2007, 
http://www.usf-iraq.com/
?option=com_content&task=view&id=9542&Itemid=21; Steven R. Hurst, 
``Four U.S. Soldiers Abducted and Fatally Shot during Attack in 
Southern Iraq,'' Associated Press, January 27, 2007.
    \53\ ``Terrorism Review,'' Directorate of Intelligence, Central 
Intelligence Agency, October 22, 1987, approved for release June 1999, 
http://www.foia.cia.gov/.
    \54\ ``Lebanon's Hizballah: Testing Political Waters, Keeping 
Militant Agenda [redacted],'' Central Intelligence Agency, July 1992, 
http://www.foia.cia.gov/docs/DOC_0000676447/DOC_ 0000676447.pdf.
    \55\ Testimony of Ambassador Philip Wilcox, hearing on ``Terrorism 
in Latin America/AMIA Bombing in Argentina'' before the Committee on 
International Relations, House of Representatives, September 28, 1995.
    \56\ Testimony of Mr. Tommy Baer, president of B'nai Brith, hearing 
on ``Terrorism in Latin America/AMIA Bombing in Argentina'' before the 
Committee on International Relations, House of Representatives, 
September 28, 1995, p. 34 of oral testimony.
    \57\ Benjamin Birnbaum, ``General in Latin America Trains Eye on 
Middle East,'' Washington Times, July 29, 2010.
    \58\ Kevin G. Hall, ``U.S. Says Iran Plot to Kill Saudi Ambassador 
Hatched in Mexico,'' Miami Herald, October 11, 2001.

    Senator Casey. Doctor, thank you very much.
    I want to thank all of our witnesses.
    We will go to our first round of questions. And the 
admonition on time will apply to the members of the panel as 
well, and I will try to do it by way of example.
    I wanted to first ask a broad question, and I know that 
answering this is difficult in a short timeframe. I wanted to 
ask you to look at the threat posed by the Iranian regime in 
the context of our national security interests. I would ask any 
member of the panel. We can start with the Ambassador and go 
down the panel. The question is, What activities or 
relationships that Iran engages in demonstrate the most 
significant threat to our national security interests? And No. 
2, what should we do about that?
    Ambassador Jeffrey. Very briefly, Mr. Chairman. Clearly 
Iran's pursuit of a nuclear weapons option, as my colleagues 
have pointed out, is the most dangerous thing that they could 
possibly do and the thing that gets this right up to the top 
level of U.S. national security.
    The second major threat that emanates from Iran has to do 
with economics and specifically oil, not so much Iranian oil 
but its ability to disrupt oil supplies from the Middle East as 
a reaction to something we might do or something it could do at 
some point, for example, if it felt that the sanctions were so 
pressuring its own oil exports that it could basically revenge 
itself. There was an example of this in the late 1980s when the 
Iraqi campaign against Iranian exports was so successful that 
the Iranians then lashed out at shipping all over the gulf. 
This led to a successful U.S. military operation against Iran, 
but it kept the whole area in tumult for 2 years.
    The third threat is a more general one, and this is where 
terrorism is so important. Essentially it is a U.S. national 
interest to keep a Middle East that is stable. Given the 
collision of religions and cultures there, given its central 
place just from the standpoint of transport with the Suez 
Canal, the Dardanelles, the Strait of Hormuz, and on and on, 
given its oil riches and given the potential danger from 
nuclear-armed or chemical weapons-armed states, it is very, 
very important that something that resembles a rule of law and 
an international order obtain there. It is one of the few areas 
of the world where we do not really have that. We are 
constantly engaged in military operations, big or small. We 
have done about 20 since 1979, Desert I. And the future looks 
like we may have to do more.
    So, therefore, Iran's leading role in challenging an 
international order and ignoring the U.N. and supporting terror 
and carrying it out itself, taken together with its other two 
threats, the nuclear threat and the economic threat, make this 
an A league problem along with several others that we really 
have to focus on, and I think we do.
    Thank you.
    Senator Casey. Anybody else on that question?
    Dr. Byman. Mr. Chairman, let me add briefly. Iran's use of 
terrorism has potential to destabilize allies that may be, I 
will say, tottering or at least weak for other reasons, 
particularly with regard to the Arab Spring. When you take 
political protests and introduce a small amount of violence, it 
can lead to a cycle of 
escalation where the regime legitimates a crackdown. That 
crackdown in turn produces more violence. And since Iran has 
the ability to stir up violence in a number of states, 
especially in the region, that is of grave concern.
    But let me also add two things.
    One is that Iran has the ability to try to disrupt the 
peace process between Israel and the Palestinians. Right now 
effectively there is no peace process. So that does not matter 
in a sense. But should, as I hope, there be a peace process, 
Iran has consistently in the past seen the peace process as, 
from their point of view, morally wrong, but beyond that, as a 
threat to Iran as a way to isolate Iran and has been successful 
in helping disrupt it.
    Iran also, I would say, got away very lightly with planning 
a terrorist attack on United States soil. It seemed it was a 
bungling attempt that came nowhere near completion, but had the 
attack
succeeded, it would have killed a number of Americans, as well 
as an ambassador of a very important ally. And because it did 
not succeed, there was no response, and to me that is not the 
appropriate way to do this. You have to think about the 
intention because with terrorism sometimes things will succeed 
and sometimes things will go wrong, and you do not wait until 
success to respond.
    And on this broader point, Iran right now is serving as a 
de facto haven for al-Qaeda, and I do not want to exaggerate 
this. It is not like the Taliban's Afghanistan. But you have a 
number of senior 
al-Qaeda figures that enjoy a certain degree of immunity within 
Iran, and ironically as the drone campaign has made Pakistan a 
very dangerous place for al-Qaeda figures, having even a place 
simply to not be killed is quite beneficial to the 
organization. And Iran has played an important role.
    Senator Casey. Thanks.
    Ms. Pletka. Let me just add very quickly. I think the point 
that Dan just made about al-Qaeda is really important. It is 
important not to overstate it. You are right.
    But the Iranians in April released Abu Hafs Al-Mauritani 
who was believed to be at the table with bin Laden when he 
planned the 9/11 attacks. He was released to Mauritania. 
Mauritania just released him because he has ``reformed.'' What 
was he doing in Iran under what is called a loose form of house 
arrest? There is plenty of evidence.
    The other thing--and I agree with my colleagues, but the 
other thing that has not gotten mentioned enough is Iran's 
willingness to arm not just the special groups in Iraq in the 
past, but also arming the Taliban against NATO forces in 
Afghanistan. Both the United States and the British have spoken 
out very aggressively against that. But the Iranians are trying 
to kill our soldiers everywhere they find them.
    Senator Casey. Doctor.
    Dr. Levitt. I would just add that both Iran and Hezbollah 
are desperate to engage in these types of activities in ways 
that enable them to have reasonable deniability. What we have 
to do is to expose these activities at every turn. I disagree 
with those who think it is a problem that the administration 
has not come out and said that the Bulgaria attack was 
Hezbollah. However, once the evidence comes out, the 
administration acknowledges--directly, not anonymously, as they 
continue in the media--Iran and Hezbollah's ability to engage 
in these types of attacks. This includes not only a failed 
attack here in Washington, DC, but, as Danny said, Khobar 
Towers and other instances in which they succeeded and that 
there is no cost makes them believe, ever since the days of the 
Beirut bombings, that they can engage in these types of 
activities. They are inexpensive and are free or larger 
political cost. And if you can engage in reasonable 
deniability, it makes it harder for your adversary to respond 
even if you wanted to. We need to remove that veneer and 
replace it with an indisputable cost.
    If there is one thing I would recommend, I suggest 
targeting Iranians' diplomatic missions, and because we are 
here, I would focus on the Western Hemisphere because we know 
that Iran supports terrorism out of its diplomatic 
institutions. We know that the number and the size of Iran's 
diplomatic institutions in South America are completely out of 
whack with its presence, and this is something in which we 
could have some tangible impact.
    Senator Casey. Thank you.
    Senator Risch.
    Senator Risch. Thank you, Senator Casey.
    I wonder. I would like to get each of you briefly to give 
me your personal opinion on what a post-Assad, post-Alawite 
Syria looks like because there is, obviously, lots of opinions 
out there, but I would like your personal opinions on it, and 
how that will affect the relationship between Iran and Syria. 
We will start with Mr. Ambassador.
    Ambassador Jeffrey. Thank you, Mr. Risch.
    First of all, it is very difficult to divine what will 
come, but I think that our experience elsewhere in the region 
indicates that we should not be as worried as we may be about 
al-Qaeda or an 
al-Qaeda-like Salafis force taking charge. I think we have very 
good contacts with some of the people who are in the 
resistance, and all in all, it will be a better place after 
Assad than it was with Assad. Once again, I will use the 
example of Iraq. We have certainly had our bad moments with 
Iraq since 2003, but all of us know that the Iraq since 2003 
and certainly the Iraq of today is all in all a far better 
place and a far bigger contributor to a stable Middle East than 
Iraq was under Saddam Hussein. So all in all, I would say it is 
worth the risk, but once again, we do not know exactly what 
will come out of it.
    Where it will particularly be worrisome, even if you do not 
get this extreme Sunni Islamic takeover that some people see, 
is, as Danny Pletka mentioned earlier, the impact particularly 
on Iraq but in the region generally between Shia and Sunni 
Islam. This is a fault line that goes deeper than Iran, that 
goes deeper than 
al-Qaeda, that goes deeper than most of the other things that 
we look at in the Middle East. It is a little bit like, a 
decade-plus ago, the Christian-Muslim split in the Balkans that 
was the driving force for many of the specific campaigns, 
Bosnia, Kosovo, and several others we managed to nip in the 
bud.
    This is a very dangerous phenomenon. A flip in the 
government in Syria would put pressure on all three groups in 
Iraq: the Sunnis to take a more active role in politics because 
they would feel reinforced; the Shia who would feel pressed 
against the wall because ironically the Alawite minority, which 
is very secular and not very Islamic, is still characterized as 
a part of Shia Islam; and the Kurds who have been sitting on 
the fence both in Syria and in Iraq as to which way things 
would go. So you would have a particular impact on Iraq if you 
did get a change.
    But again, my feeling is that this is probably inevitable. 
It is probably, all in all, to our advantage. And at the detail 
level of how much to our advantage, that is a question of good 
policy and good diplomacy.
    Senator Risch. Dr. Byman.
    Dr. Byman. To emphasize the obvious, we do not know, of 
course, what is going to happen in Syria, I would say, next 
week let alone a year from now or 5 years out. But I think it 
is fairly safe to say that any state that emerges is going to 
be very weak and very prone to instability. We have seen 
growing sectarianism in the conflict. War has created a dynamic 
that exacerbated what was already there.
    And of particular concern to me is that a post-Assad Syria 
might not actually be a post-Assad regime Syria, that we might 
see this regime lose power in much of the country and 
essentially hunker down in certain cantonments and parts of it 
while the opposition fights among itself.
    What has really been striking in a disheartening way in 
Syria has been the lack of unity within the opposition. We are 
over a year into what has become the bloodiest part of the Arab 
Spring, and right now we see a lack of unity politically. We 
see a lack of unity militarily. The United States has been 
working, I will say, mainly with external voices that appear to 
have relatively little influence within Syria, and frankly, 
from what I can tell, our policy of working with the external 
voices has not even succeeded on that limited basis. So I am 
very concerned we are going to see a fractured Syria and one 
that will be a source of instability for not only Syria but for 
the region in general in the years to come.
    One silver lining is I think almost no matter what comes 
out of Syria, it is going to be bad news for Iran. A year and a 
half ago, they had a good, dependable ally at the heart of the 
Arab world, and if this ally is weakened, that is a good thing. 
If this ally falls, that is a good thing. And beyond that, Iran 
has been further discredited because it is seen as supporting 
the forces of oppression. So this is one of the silver linings 
that has come out of what is a very tragic situation.
    Senator Risch. Ms. Pletka.
    Ms. Pletka. As I had a piece in the Washington Post on this 
on Sunday, I am going to spend a lot of time quoting myself, 
which is an unattractive Washington habit.
    I do not agree with Dan at all about the opposition. The 
Democratic Party is fractured, and it has the White House and 
the Senate. The Republican Party is fractured and it has the 
House and a Presidential candidate people think might win.
    The reality of opposition groups is opposition groups fight 
with each other, and when they do not have a great power 
backing, as the Libyans did, then they fight a lot more because 
there is no one outside to hold out the sort of fruits of 
victory and explain to them what that would mean and try and 
broker the disagreements that occur. So instead, we spend all 
of our time as a matter of policy saying, oh, they are very 
fractured. They really disagree. It is really distressing. 
Obviously, they disagree. That is what countries have is 
fractured oppositions and people who disagree with each other. 
It is a democracy that can absorb those disagreements, and that 
is what we hope Syria will become.
    I would argue that if we continue to pay as little 
attention as we have to the future of Syria, it will, in fact, 
be a problem and will be unstable and will represent 
potentially a risk for our interests in the region. If we get 
more involved and we work more closely with our European allies 
and we work with all of the Syrian opposition, not just the 
Turkey-based opposition, I think absolutely we have an 
opportunity to help Syria move in the right direction, as Libya 
has, as Tunisia has, and we hope as Egypt has. So I am not as 
pessimistic and I think that the United States has an important 
role to play if only we choose to play it.
    Senator Risch. Thank you.
    Dr. Levitt.
    Dr. Levitt. In brief, I just want to say it is going to be 
weak. It is going to be weak, but it is not going to be as 
friendly or capable an ally to Iran. Most Syrians, I think, are 
probably pretty angry with Iran right now for continuing to 
support this regime. For a long time, people had hoped that a 
major Sunni general would get up and make a deal with the 
Alawites, the massacres would stop and things would move 
forward. And that did not happen.
    I think it is true that the opposition is fractured and 
perhaps there is good reason for that, but I think there is a 
lot more that we can and need to do to work with that 
opposition or even oppositions to move this along, because in 
the interim Syrians are dying and it is a very messy situation. 
I think the longer things go this way, the messier it is 
afterward.
    The final comment comes from a terrorism perspective. There 
is concern that there are some al-Qaeda elements that have 
infiltrated in, and there is concern that Muslim Brotherhood 
elements have played too large a role in the opposition. But I 
think it was today's New York Times that cited an al-Qaeda Web 
posting from Syria. They ran it in today's Times, but the Web 
posting is from February.
    Senator Risch. Thank you.
    Mr. Chairman, my time is up.
    Senator Casey. Thank you, Senator Risch.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you all for your testimony.
    I would like to get a sense from you what you believe the 
impact of the U.S., EU, and U.N. sanctions has been on 
financially constraining the ability of Iran to export 
terrorism, if at all. If so, could you give us a sense of it. 
And if not, if your answer is that it has not really ultimately 
deterred or hindered Iran's ability to export terrorism, then 
what would? How could we achieve that goal in addition to, 
obviously, our goal of trying to deter their path toward 
nuclear weapons? I will open it up to anyone.
    Dr. Levitt. Well, I am the former Treasury guy, so I will 
jump in.
    I think, first of all, it is important to note that almost 
all of our sanctions are proliferation-focused. They are not 
terrorism-focused. I can think of only one, the Bank Saderat 
action, which was explicitly done for a counterterrorism 
purpose. That said, it is not like Iran keeps its proliferation 
money and its terrorism money in separate banks.
    I do think it has had an impact, though it is limited. I 
had a piece in Foreign Affairs a little while back called 
``Party of Fraud'' about Hezbollah's movement into criminality 
to complement its funding. One of the reasons for this, and its 
increased prominence over the past few years, including its 
move into the drug trade, is because a few years back, Iran cut 
Hezbollah's funding we believe by somewhere between 30 and 
maybe even 40 percent for a period of time. So even if they are 
limited to 60 percent of their funds, they can still buy the 
bullets and the missiles they want, but they cannot fund their 
other programs, and they cannot pay their salaries, which is a 
significant setback for Hezbollah. It does not minimize their 
ability to target Israel, the United States, or to do things in 
Bulgaria or Cyprus or potential targets. That is relatively 
inexpensive, but it has had an impact. The question is how do 
you sustain this impact. We do not think that has lasted very 
long.
    So I do think other actions are necessary, including, as I 
said earlier, exposing and highlighting every time we see them 
doing something. I am reminded of a story of the current White 
House counterterrorism advisor, John Brennan, while he was in 
Saudi Arabia--I think Tenet writes about it in his book--at one 
point Brennan approached an Iranian officer parked in his car 
and knocked on his window and say, hey, how are you doing? Good 
morning. How is it going? That exposed the Iranian officer and 
likely caused him no small amount of discomfort when asked why 
it was that an American appeared to know him. Denying Iran the 
ability to operate with reasonable deniability is critical, so 
that it is no longer the case that there is no literal or 
diplomatic cost to their activities. And I think if you start 
using all elements of national power, we can get a lot farther. 
We have been doing that now on the nuclear side. We need to do 
the same on the terrorism side too, and that means convincing 
some of our allies that Iran is not only a nuclear threat but 
also a terrorism threat.
    Senator Menendez. Yes.
    Ms. Pletka. I agree with Matt completely. We finished a 
report at AEI just earlier this year about Iranian support for 
a variety of groups throughout the region, and one of the 
things we saw was that Iran's economic troubles and the 
sanctions have definitely cut the amount of money they are able 
to spend and they are able to give to Hamas, to Palestinian 
Islamic Jihad, and even to the kind of softer things that they 
were doing. Trade agreements and things like that, really were 
not being fulfilled.
    But Matt is exactly right. The problem is that that does 
not curtail the ability of these terrorist groups that are 
supported by Iran to continue undertaking acts of terrorism. 
One of the things we really can do is do a much better job in 
outing the Iranians. The fact that the President suggested that 
we see no threat coming from Venezuela, where the Iranians and 
Hezbollah have been enormously active on a variety of fronts 
clearly directed toward the United States, is a disappointment.
    There are many, many more things that we ought to be doing 
to be frank about it. We can absolutely do more on the visa 
front, even on that very simple front, with our allies to 
ensure that Iranian officials really cannot travel. We can do 
more about Iran Air, which is still able to fly to many places 
around the world and is used by the Iranians to transport 
weapons and personnel for a whole variety of nefarious 
purposes. So those are two simple things that we might start 
with.
    Senator Menendez. Yes.
    Dr. Byman. Very briefly I want to emphasize a point that 
Matt made about publicizing this. But a part of the key to me 
is to publicize it within Iran. Support for a number of these 
groups is not at all popular in Iran and in part due to 
sanctions and in large part due to mismanagement, Iran itself 
has huge economic problems, and so sending money overseas to 
support a range of groups is not something that average 
Iranians strongly support. And simply highlighting again and 
again to the Iranian people that the choices their regime makes 
are negative on a daily basis for ordinary Iranians in a bread 
and butter sense to me is very important. And terrorism is 
actually a very good one to do. I think there is probably more 
support among the Iranian people for the nuclear program than 
there is for support for a range of extremist groups.
    Senator Menendez. And if that information flow, which is 
obviously not going to come from the Iranians since there is 
not really a free press process in Iran--if that information 
came from surrogate broadcasting like our Voice of America 
efforts and whatnot, do you think that that would have 
credibility?
    Dr. Byman. I think anything that comes directly or 
indirectly from U.S. officials will be questioned. That is not 
an issue. The thing to me is you are forcing a debate. You are 
forcing the Iranians to discuss the issue, to deny it.
    Iran is actually tremendously open from a media environment 
point of view if you look at the large number of Iranians in 
exile who are in regular contact with friends and family back 
home, if you look at the tremendous availability of technology 
within Iran. So the key to me is not--this is not North Korea. 
It is not a problem of getting messages in. What you want to do 
is force them to respond to it. They will still say it is all 
lies, but nevertheless, simply having that debate puts them on 
the defensive.
    Ambassador Jeffrey. Senator, I agree with everything that 
my colleagues have said.
    Very briefly, indirectly these sanctions are very, very 
effective against not only terrorism but the other tools that 
the Iranians have. We have been involved for at least 30 years 
in a low intensity competition, conflict, close to war with 
Iran on a variety of fronts. One of the more common tools that 
they use as they see asymmetrical warfare against us, against 
Western interests, against the interests of the bulk of the 
states in the Middle East is terror. We can counter that 
directly and we have at times and at times we have not.
    But more importantly, we are now effectively carrying out a 
variety of steps that are squeezing Iran in its campaign, most 
importantly the oil sanctions, but its general isolation 
through the U.N., the EU, and other activities, and third what 
is going on in Syria. And to the extent that we continue to 
work closely with our gulf allies, with Iraq, with Afghanistan, 
that we maintain as strong a presence in the region as 
possible, supporting Israel, and looking for every opportunity, 
we counter what is going on. It is very hard to list all of the 
things we are doing and say this one blocks this, this one 
deters that because it is a very broad campaign. But right now, 
we are in many respects on the offensive, as are they in 
reaction to us with their terrorist attacks.
    Senator Menendez. Well, thank you all. I will just close 
with a comment--I think that we can squeeze the noose even more 
by the negotiations that are currently going on between the 
House and the Senate to perfect, in essence, the CISADA 
sanctions and to eliminate the loopholes that the Iranians 
found on workarounds, including the Iranian shipping lines and 
tanker companies, among others. I believe this effort will 
further squeeze the Iranian's economically in this mutual 
pursuit of having them deterred from their path toward nuclear 
weapons as our last tool of peaceful diplomacy and allowing 
them to have increasingly fewer resources for their promotion 
of terrorism.
    So thank you all. Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Menendez.
    Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Thanks to each of you for joining us.
    My first question I will direct first to Ms. Pletka and 
then open it up to anyone else who might want to weigh in on 
it.
    On Sunday, Prime Minister Benjamin Netanyahu insisted on 
national television in America that his government has what he 
described as unquestionable evidence, unquestionable 
intelligence showing that Hezbollah, with the backing of Iran, 
was behind the suicide bombing in Bulgaria last week that 
killed five Israeli nationals.
    So, first, what is your assessment of Hezbollah's possible 
involvement in that? And second, if Hezbollah was in fact 
responsible for the attack, do you believe that this was 
coordinated by Hezbollah or was it coordinated by the Iranian 
Government in Tehran?
    Ms. Pletka. Thank you, Senator.
    I do not have an American security clearance, let alone an 
Israeli one, so I have not seen the evidence and I do not know. 
What I do know is that the Bulgarians say that this was a very 
sophisticated operation, that as many as five people were to 
believed to have been involved in it, that they flew into the 
country perhaps even a month before.
    Given the large number of attempted attacks--I said in my 
opening testimony that there had been nine in recent months--I 
think that it is not unreasonable to suppose that the Iranians 
are helping to coordinate it. In some cases, the attacks that 
we saw particularly against Israeli diplomats were exact 
mirrors of the attacks against Iranian scientists that we saw 
taking place in Tehran. There were bikers going by with sticky 
bombs trying to attach bombs to cars to blow them up. Now, 
perhaps that is a coincidence.
    You know, Iran is capable of undertaking terrorist attacks 
on its own with its own Quds Force personnel, but for them, the 
lesson of the last 30 years is if you do it through a terrorist 
group, through a proxy like Hezbollah, you are much less likely 
to pay any price for it because there will be that confusion, 
that sort of fog in the conflict. And that is what you see 
right now.
    You see that while Netanyahu is very aggressively going out 
and naming names and accusing, that the U.S. Government, for 
whatever reason, is being very reticent about that. I am 
reluctant to believe that we have less good intelligence or 
that the Israelis have not shared it with us. Nonetheless, we 
seem reluctant to say exactly who was behind it. That is part 
of our problem. We are always reluctant to say who is behind it 
even when we have them dead to rights.
    Senator Lee. Even when we know or have strong reason to 
know.
    Ms. Pletka. I encourage everybody to go--I linked it in my 
testimony, so it is online. Go and read the indictment in the 
Khobar Towers case. I cannot remember what was not classified 
and what was, so I do not want to say anything inappropriate. 
But let us just say that we had Iranian Government officials 
spot-on, dead to rights involved in the coordination of the 
attack at the time it took place, and nothing has happened. 
Nothing.
    Senator Lee. Anyone else care to add to that?
    Dr. Levitt. One of the chapters in my book, Danny, is on 
Khobar. So you will know exactly what is classified and what 
has been declassified.
    There are lots of reasons to suspect early on that 
Hezbollah may have been involved. Hezbollah was thwarted in a 
similar attempt to carry out an attack on Israeli tourists on 
buses this past winter in Bulgaria. A Hezbollah individual was 
caught and apparently confessed just a few weeks ago in Cyprus 
to a plot that was almost identical, targeting buses at 
airports, et cetera.
    But I do not really blame the administration for publicly 
stating that they will hold off until all the evidence has been 
examined, because there are good evidentiary leads, such as DNA 
and sketch artists' renditions. They have apparently tracked 
down some of the rental agencies and things of that nature. 
Brennan is right there. I am sure that we are helping. My guess 
is, again not having access to the Israeli information, that 
other sources and methods of the type that you were alluding, 
suggest Hezbollah is a suspected perpretrator.
    It would not surprise me at all if Iran provided some 
support. The attack was carried out on the anniversary of the 
AMIA bombing in Buenos Aires in 1994, and in that case, again, 
public indictments are available on the Internet. We have the 
Iranians dead to rights on their support for the Hezbollah 
cell; several people came in weeks in advance to carry out the 
attack. The fact that there are parallels is not in itself an 
indictment, but there are plenty of parallels. I think we need 
to let the investigation run its course, but I will be shocked 
if we do not find out that, in fact, it was Hezbollah perhaps 
with Iranian support.
    Of all these attacks we have seen over the past year and a 
half, some have been Hezbollah on its own, some have been Iran 
on its own, some of have been the two of them together. Any 
combination of that is possible.
    Senator Lee. Do you ever worry, by the way, that with so 
many bombings, that is going to give rise to even more 
anniversary bombings? It is almost always the anniversary of 
some bombing somewhere. That frightens me.
    Dr. Levitt. Not really, because in my experience terrorists 
love to use an anniversary when it is convenient, and if it is 
not convenient, they will bomb you when they can. I am reminded 
of the February-March 1996 string of bus bombings in Jerusalem 
by Hamas, and one of them by Islamic Jihad, that impacted the 
Israeli elections there. They claimed that the attack was in 
response to the assassination of the Hamas bombmaker, Yahya 
Ayyash, who had been killed by the Israelis. But once you got 
into the investigation, it turned out that they were deep into 
the planning stages of this operation months before Yahya 
Ayyash was killed. So then the anniversary just became the 
opportunity of coincidence.
    Senator Lee. Do either of the other two of you care to 
weigh in on that one?
    [No response.]
    Senator Lee. Ambassador Jeffrey, I have got one question 
for you.
    Iranian navy commander, Rear Admiral Habibollah Sayyari, 
was quoted recently as saying just like the global hegemony 
that is present near our Marine borders, we also plan to 
establish a strong presence near U.S. Marine borders. What is 
your assessment of the current strength of the Iranian Navy?
    Ambassador Jeffrey. I am not a military expert. One of the 
few parts of Iran's violent outreach that we did not have to 
worry about in Iraq usually was the navy, although down in the 
south, we did have some concerns about the terminals.
    The main threat, as I understand it--but again there are 
people who know a lot more about this than I--of the Iranian 
Navy comes from its, again, asymmetrical warfare capabilities. 
These include the speed boats which can swarm on a target and, 
if nothing else, divert crews from other activities; the small, 
but very lethal fleet of midget submarines that they have; 
mine-laying capabilities; and the antishipping missiles that 
they have located at various points along the coast that are 
basically focused on the gulf, and all of the traffic in the 
gulf is within range of it. So it is a multifaceted threat that 
they pose. It is not a navy that could slug it out with us. 
They tried that in 1987-1988 and they lost across the board. 
But these asymmetrical capabilities that their navy has, 
particularly the Revolutionary Guard Navy which has the lead in 
the gulf as opposed to the regular navy which is down in the 
Indian Ocean, I think are quite considerable and quite a lot of 
concern to us, sir.
    Senator Lee. So, in other words, when they talk about 
establishing a presence somewhere, it is not necessarily a 
presence in the same sense that we would use that term in terms 
of a carrier group, but the fact that it is a smaller presence 
and more subtle one does not mean that it is not dangerous.
    Ambassador Jeffrey. Right, exactly. Basically they look at 
laying mines, speed boats, terrorist activities, espionage--
they look at all of these things as counters to the 
conventional capability that we, Israel, and the Sunni Arab 
States of the Gulf all have over them.
    Senator Lee. Thank you.
    Thank you, Chairman. I see my time has expired.
    Senator Casey. Thank you, Senator Lee.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, thank you very much and thank 
you for chairing this hearing. This is an extremely important 
subject for U.S. national security interests. Iran is a very 
dangerous country. It is an oppressive regime to its own 
people, which is of great interest, I would hope, not only to 
the United States but the international community. It is a 
supporter of terrorism that is beyond any dispute. The fact 
that they have increased activities against Israeli interests 
is of major concern to all of us. The fact that they have 
shipped arms to terrorist organizations from Hezbollah to Hamas 
and other terrorist groups and supporting the Assad regime in 
Syria, all those give us great concern as to what is happening 
in Iran. And I followed your answers as to whether sanctions 
are working and how effective they have been.
    But one thing we know, there has been increased activity by 
Iran. We know that they are still seeking to become a nuclear 
weapons state, which would be a game-changer in the Middle 
East.
    I want to first ask as to whether any of you have an 
opinion as to whether Iran is targeting the United States 
directly. We have seen evidence with the Saudi Ambassador in 
2011. Do we have any increased concern about Iranian terrorist 
activities that could actually come to United States soil?
    Dr. Byman. Senator, that to me is one of the biggest 
concerns about what we have seen in Iranian behavior in the 
last several years. From my take, it is not a direct desire to 
target the United States within the U.S. homeland. It is much 
more a willingness to kill Americans as part of other 
operations, so going after Israeli or Jewish targets in India 
or elsewhere, some of the plots being concerned would have led 
to deaths of Americans. Most important, the attack on the Saudi 
Ambassador in the United States, had it succeeded, would have 
killed many Americans dining in the same restaurant, and that 
would not have been the target, but the fact that that did not 
stay their hand, to me is actually rather dramatic. That is a 
very big change from what we have seen recently. As the 
Ambassador can testify much more authoritatively than I can, 
Iran, of course, is responsible for backing an array of groups 
in Iraq and also Afghanistan that have gone after Americans. So 
we have seen them be more aggressive in a variety of ways and a 
willingness to inflict casualties on Americans. So to me this 
is of tremendous concern. It is different in some way than the 
1996 Khobar Towers bombing where it was a direct ``we want to 
kill Americans in Saudi Arabia.'' But it is moving more toward 
that direction. It shows Iran is more willing to take risks. It 
shows it is willing to be more confrontational, and this is a 
shift that to me is quite dangerous.
    Senator Cardin. Should we be looking more toward attacks 
against Americans, Dr. Levitt?
    Dr. Levitt. I would just add that the Director of National 
Intelligence who testified before Congress that the Arbabsiar 
plot--the plot targeting the Saudi Ambassador here in 
Washington, DC--suggested that at least some within the Iranian 
decisionmaking elite no longer saw a redline for carrying out 
attacks directly targeting Americans. I think that is 
tremendously significant. It goes beyond the support for 
militants in Afghanistan, even beyond the much more proactive 
and hands-on support for plots directly targeting Americans in 
Iraq, and reportedly some of the recent plots going on 
internationally may have been targeting American interests too, 
including the last plot in Azerbaijan targeting reportedly 
United States diplomats there.
    So I do think that Iran traditionally is aggressive and we 
are traditionally risk-averse. I think Iran has become much 
more aggressive in part because it perceives a need to be more 
aggressive in response to the shadow war. I think we need to do 
more to pull this out of the shadows because, as you said, Iran 
is increasingly dangerous on the CT front, the nuclear front, 
to the human rights front, et cetera.
    Senator Cardin. I want to talk about what the Iranian game 
plan is in regards to its activities in Syria. Syria, by far, 
has had the most international attention of late for good 
reason. The Assad regime is causing incredible human rights 
violations. The Iranian regime is one of the supporters of the 
Assad regime. One thing is certain: Assad will not last much 
longer. We are going to see a regime change. It will happen. I 
think most people agree on that. Iran understands the dynamics 
of what is happening in Syria, and yet they support the Assad 
regime. We also know the Sunni ethnic population would most 
likely have more impact in the next government of Syria. You 
would assume that there would be some accommodations made. And 
yet Iran seems to be reaching out to have influence in the next 
regime in Syria. I do not think we can just
assume that it will be an anti-Iranian regime.
    Do you all have any views as to how you see Iran playing 
the developments in Syria to further its own objectives of 
international relevancy and maintaining its current objectives 
against Israel and United States interests?
    Ms. Pletka. Iran is obviously very active on the ground. I 
mean, there are IRGC forces on the ground fighting with the 
regime against the rebels. I think we have ample videos. They 
are available on YouTube. You can see them. In fact, Iran is so 
deeply involved, that the bombing that killed four now senior 
Cabinet officials in the Syrian Government was rumored to have 
also killed Qasem Sulemani, the head of the Quds Force. I do 
not know what the news is today, but he has not surfaced since 
then and he was in Damascus at the time. So I do not know 
whether it is reliable or not, but that is how deeply involved 
the Iranians are in their defense of the Assad regime.
    I would, I think, respectfully disagree a little bit about 
a post-Assad Syria. I think that Iran has had its fingers so 
clearly involved in the continuation of the Assad regime and 
the Assad regime is so profoundly hated by the vast mass of the 
Syrian people that the odds that Iran will have any influence 
other than through violence or sponsorship of terrorism inside 
Syria in a post-Assad scenario I think is very limited.
    The real question is----
    Senator Cardin. Do all three of you agree with that? You 
think that it is pretty much a foregone conclusion, based upon 
what Iran has done on the ground, that we will have the next 
Syrian regime as an ally as it relates to actions against Iran 
or not?
    Mr. Ambassador.
    Ambassador Jeffrey. Right. Having dealt with Iraq, an ally 
of ours, on some of the bad days, as well as good days, with it 
as an ally, I am a little bit cautious about predicting that 
what will emerge from Syria would be an ally.
    What I would say is that Iran--and here I agree 150 percent 
with Danny--is totally committed to the Assad regime and its 
maintenance of power because if the Assad regime falls and a 
Sunni government takes over, Iran first of all fears that it 
will lose its influence that has brought it to the 
Mediterranean, gives it an ally in what it sees as its struggle 
against Israel. But also, as I mentioned earlier, there is this 
fissure bubbling underneath the surface in the Middle East 
between Sunni Islam and Shia Islam, and Iran sees itself as the 
champion of Shia Islam, and ironically it sees the Alawite 
regime as an outpost of Shia Islam. And so this would be a 
terrible blow to it under any and all circumstances.
    I mean, I would characterize Iran's position with Syria 
with the United States position toward Egypt. At times, we are 
trying to nudge the Mubarak administration along; at times, we 
are reaching out to the opposition. At the end of the day, we 
figured regardless of what happens, we will try to have a 
relationship, including a military relationship, with the new 
regime. I do not see Iran playing a similar role in Syria. They 
are committed to keep this regime in power and they will do 
anything and everything they can, I believe, to do so.
    Senator Cardin. I would just make an observation, Mr. 
Chairman, and I will yield the floor. One of the options, of 
course, is that there is a coup from within and that there is 
no predictability as to what type of government comes next. And 
there could be a government that, yes, includes more 
representation from the Sunnis but does not break its ties to 
the minority ethnic population and its ties to Iran. I just 
think it is something we have to watch very carefully. I think 
all of us are somewhat suspect as to what type of government 
comes next and how close they will be to U.S. interests. I was 
just pointing out would we have a friend as it relates to 
policies against Iran, not a friend as it relates to maybe 
other issues in that region.
    But I think your responses have been very helpful, and I 
thank you very much for your answers.
    Senator Casey. Thank you, Senator Cardin.
    Senator Udall.
    Senator Udall. Thank you, Chairman Casey and Ranking Member 
Risch. A very important hearing today and I very much 
appreciate the witnesses here and the discussion already.
    It is well known that Iran has been attempting to increase 
its influence in Iraq before and after the end of United States 
involvement in the war. And in addition, it has also been 
reported that Iran gave support to the Northern Alliance in 
Afghanistan prior to the allied invasion to overthrow the 
Taliban.
    With regards to Afghanistan, do you believe that Iran will 
look to continue its influence of groups inside Afghanistan, 
and is it feasible that we could see an increase of Iranian 
activity as the United States draws down its forces and turns 
over security responsibilities to the Afghan Government?
    Ambassador.
    Ambassador Jeffrey. Judging from my experience in Iraq and 
my general following of what is going on in Afghanistan, I 
think you can count on Iran, particularly as it is pressured 
ever more with what is going on in Syria, with what is 
happening internationally, with what is happening with its oil 
trade, to find ways to strike back. One way that it will see a 
vulnerability will be in Afghanistan. It has long had good 
relations both with the people of the Northern Alliance that 
overthrew the Taliban, but more recently, as we have discussed 
earlier today, it has been providing arms to Taliban and 
Taliban-associated groups that have been attacking us and NATO 
forces in the south of the country, and I think it will 
continue to play that role. It is an economy of force role, as 
with Iraq. It allows them, with a relatively limited amount of 
money and weapons and personnel, to maintain a presence on the 
ground. I think you are going to see that. I think it is a 
challenge but it is not something that we cannot deal with. We 
dealt with it in Iraq. We are still dealing with it in Iraq, 
and we can deal with it in Afghanistan as well.
    Senator Udall. Do any of the others have--yes?
    Ms. Pletka. We are not, obviously, here to talk about 
Afghanistan that much, but one of the additional tools that the 
Iranians bring to bear is the fact that they are home to more 
than a million Afghan refugees. Now, that is a very substantial 
burden for them. So on the refugee side, let us say good that 
they are there. They are in refugee camps along the Afghan 
border. And one of the things that they regularly do to 
destabilize the Karzai government and to try and complicate the 
economic situation and the political situation in Afghanistan 
is threaten to dump all the refugees back in Afghanistan. So it 
is not just a weapons strategy. They have a very sophisticated 
political, economic, and military strategy vis-a-vis 
Afghanistan that is interested in ensuring that the country 
remains unstable.
    Dr. Byman. Iran has been involved in various civil wars in 
Afghanistan really since the beginning of the Islamic republic. 
It has not been very successful. It has worked with a wide 
array of groups, but most of them took their money, took their 
weapons, and then went and did what they had planned to do in 
the first place. And I think this experience has taught Iran 
some caution. Their goals in Afghanistan are quite real but 
they are limited. A colleague of mine said that talking about 
Iranian support for these groups is a bit like talking about 
illegal immigration from Canada, you know, that when you 
compare it to Pakistan which is so involved really up to its 
neck in supporting a wide array of very anti-American, anti-
Karzai groups, that the Iranian role by comparison is minor.
    But Iran is focused, I would say, also logically enough 
along its border, and as a result, Iran does not want a strong 
central Afghan Government. It is fine with having a certain 
degree of instability along its border, and with that 
guaranteed instability elsewhere in the country, if it sees the 
regime is hostile.
    As the U.S. forces draw down, there is likely to be a void. 
I do not see many credible expectations that the Afghan 
Government will be particularly robust when this happens. And 
in this void, in part to counter Pakistan, in part to counter 
the Taliban, Iran may act, but conversely if other factions are 
strong that Iran opposes, Iran may end up working with these 
various groups. So I think Iran will be very flexible. But I 
also think the good news is it may not be very successful.
    Senator Udall. Dr. Levitt, any thoughts?
    Dr. Levitt. The only contribution I can make to these words 
of wisdom is just that in the immediate, I think Iran would be 
perfectly happy, especially since it does not have the American 
targets in Iraq anymore, to provide military assistance to 
those who are targeting American and NATO troops there. That 
limited objective it is able to do easily at very little cost 
without having to worry about the larger objectives of 
maintaining instability or a relatively weak central 
government. And so I am concerned that we will see an increase 
in this type of lethal assistance to our adversaries in 
Afghanistan.
    Senator Udall. Thank you and thank you very much, Chairman 
Casey.
    Senator Casey. Thank you, Senator Udall.
    I know we have to wrap up. I want to pose one question and 
ask for 30- to 45-second answers, if you can do that, and I 
know it is not enough time.
    The predicate for the question--and I am not sure there is 
much disagreement--is that we have established, even prior to 
this hearing and certainly on the record in this hearing, that 
No. 1, the possibility that Iran could develop nuclear 
capability is a direct threat to the United States and 
certainly to the Middle East even more directly. No. 2, on a 
separate track, Iran is the backer and the banker of all the 
bad guys in the region. And No. 3, they export terrorism beyond 
the region.
    So if you look at this challenge on those three tracks, the 
question that I have--and I am sure many others do as well--is 
what should the United States do on the track related to Iran's 
support for terror in the region and beyond the region, even in 
the absence of nuclear capability which, of course, we cannot 
discount?
    Mr. Ambassador, I will start with you. If you had a short 
list for what the United States should do, what would it be?
    Ambassador Jeffrey. It is very short, sir, because again, 
Iran is not to terror as al-Qaeda is to terror. It is one of 
the tools in its toolbox that it uses in this long-term 
campaign. We are engaged, I think, quite effectively at the 
moment in a countercampaign against it. So it is a question of 
tweaking that counteroffensive that we are underway with.
    More work on the sanctions. We have been very successful 
and we have had a crushing impact on the Iranian economy. That 
is a good thing.
    Second, Syria is an opportunity unparalleled in the last 30 
years for us, and if we can play a more active role there, I 
think that that would be very, very beneficial not simply 
through the Turks. For example, the chemical weapons threats 
that we have been hearing emanating from Syria--that begs the 
question of what will we do if they threaten chemical weapons 
again. It is a relatively easy thing for us to take a strong 
position on.
    And again countering by speaking out, by using 
counterterrorist tools that we have had for many years, as this 
campaign goes on, because it will go on, against Israeli and 
American and possibly Saudi and other Sunni Arab interests.
    But at the other hand, the one tool that we also have to be 
aware of is this fissure line between Shia and Sunni Islam. It 
is very, very important that we not see ourselves or have 
ourselves positioned on one side of that versus the rest of the 
region because the rest of the region includes large minorities 
in Bahrain and in Yemen and elsewhere and, of course, a 
majority of the population in Iraq. So it is a very, very 
touchy subject.
    Senator Casey. Thanks so much.
    Doctor.
    Dr. Byman. As the Ambassador noted in his earlier remarks, 
if you push back hard on Iran, it does respond, and to me, 
unfortunately, we have not been as aggressive as we should be. 
So much of what we discussed during this hearing, publicizing 
what Iran does rather than trying to play it down. If there are 
failed attacks, treating them seriously, not waiting for 
successful attacks to respond. Responding promptly. And so 
there is a certain political window and diplomatic window after 
violence to do something that dissipates over time.
    And with al-Qaeda, we have a campaign. We have a worldwide 
effort. It involves a wide array of allies in very different 
and often creative ways. And with Iran, it is more ad hoc. It 
is quite serious, but I would say on terrorism, it needs to be 
more comprehensive. And this is going to vary by region and 
country, but it should be done in a more systematic and 
sustained way.
    Senator Casey. Ms. Pletka.
    Ms. Pletka. We can each of us be more succinct because we 
agree with our predecessors. So I agree with both Jim and Dan 
on this.
    I do think we can do more to deny Iran and its proxies 
operational latitude in Lebanon, in the West Bank, and in Gaza, 
and in other places where they operate. So that is an 
additional factor where we actually do have some leverage.
    I think we could do much more to push out the Assad regime 
and to help ensure that a future Syria is stable and will not, 
in fact, be an ally to Iran and will not be so unstable that it 
will end up helping Iran anyway.
    And last. And I am going to quote Matt's colleague, Dennis 
Ross, who did an event with us last week, who said that for as 
long as Iran is persuaded that we want the nuclear talks more 
than they do, they are never going to give us anything. And I 
thought he was exactly right when he said it. We are engaged in 
these low-level or lower level talks between the EU and the 
Iranian designate in Istanbul. They have been going on. We have 
not set a next meeting, and yet no one is willing to say or put 
any pressure on the Iranians that in fact the nuclear talks are 
failing because no one wants to have to do what it might 
require when they fail. So we are playing Iran's game and we 
should stop playing Iran's game.
    Senator Casey. Thank you.
    Dr. Levitt.
    Dr. Levitt. I completely concur. The Iranian negotiation 
strategy is to negotiate over the next negotiation.
    We need to publicize what they are doing. We have a 
tremendous opportunity in Syria. I think we need to get greater 
international effort, consensus on targeting not just Iran's 
nuclear issues but its support for terrorism. A European Union 
designation of Hezbollah would be huge here, and if they were 
unwilling to designate the entirety of the group, though I 
would prefer that, a secondary would be to go the British route 
which would be to designate just the terrorist or military 
wings of the group. Even that would have some impact.
    Iranian travel is also a cause for concern. It is very easy 
for Iranians to travel to a lot of places, such as Malaysia 
where visas are not required. This enables them to do all kinds 
of things as well.
    I think it was after the Mykonos bombing in Germany that 
almost all European countries for a short period of time 
withdrew their ambassadors. If it turns out that this attack in 
Bulgaria was a Hezbollah or Iranian attack, I think we should 
press our European allies to do that, not necessarily closing 
their embassies, but showing a united front. That gave a huge 
message at the time.
    And the message should not always come from us. I argued in 
testimony before the House after the Arbabsiar plot targeting 
Ambassador Al-Jabeir that this was as much of an attack on the 
Saudis as it was on us, and the Saudis and other Gulf States 
should be pressing their allies to take similar action, 
including targeting Iranian diplomatic presences and their size 
and range 
of activities throughout the world, starting with the Western 
Hemisphere.
    Senator Casey. Thanks very much. We have more questions. We 
will submit them for the record. The record will be open for at 
least a week.
    I want to thank Senator Risch and our witnesses for being 
with us. Thank you very much for your time.
    We are adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
